<html>
<title> - U.S. POLICY ON YEMEN</title>
<body><pre>[Senate Hearing 117-27]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-27

                         U.S. POLICY ON YEMEN

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON NEAR EAST,
                       SOUTH ASIA, CENTRAL ASIA,
                          AND COUNTERTERRORISM
                          
                                 OF THE
                                 
                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION
                               __________

                            APRIL 21, 2021

                               __________

       Printed for the use of the Committee on Foreign Relations
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                  Available via http://www.govinfo.gov
                  
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-973 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------              


                 COMMITTEE ON FOREIGN RELATIONS        

             ROBERT MENENDEZ, New Jersey, Chairman        
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
CHRISTOPHER MURPHY, Connecticut      MITT ROMNEY, Utah
TIM KAINE, Virginia                  ROB PORTMAN, Ohio
EDWARD J. MARKEY, Massachusetts      RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                 TODD YOUNG, Indiana
CORY A. BOOKER, New Jersey           JOHN BARRASSO, Wyoming
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
CHRIS VAN HOLLEN, Maryland           MIKE ROUNDS, South Dakota
                                     BILL HAGERTY, Tennessee
                 Jessica Lewis, Staff Director        
        Christopher M. Socha, Republican Staff Director        
                    John Dutton, Chief Clerk        



             SUBCOMMITTEE ON NEAR EAST, SOUTH ASIA,        
               CENTRAL ASIA, AND COUNTERTERRORISM        

           CHRISTOPHER MURPHY, Connecticut, Chairman        
JEANNE SHAHEEN, New Hampshire        TODD YOUNG, Indiana
EDWARD J. MARKEY, Massachusetts      RAND PAUL, Kentucky
CORY A. BOOKER, New Jersey           TED CRUZ, Texas
CHRIS VAN HOLLEN, Maryland           MITT ROMNEY, Utah
                                     BILL HAGERTY, Tennessee

                              (ii)        

  
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page

Murphy, Hon. Chris, U.S. Senator From Connecticut................     1

Young, Hon. Todd, U.S. Senator From Indiana......................     3

Lenderking, Hon. Timothy, United States Special Envoy for Yemen, 
  U.S. Department of State, Washington, DC.......................     4
    Prepared Statement...........................................     7

Grande, Lise, President and Chief Executive Officer, United 
  States Institute of Peace, Washington, DC......................    20
    Prepared Statement...........................................    22

Catanzano, Amanda, Senior Director, International Programs, 
  Policy and 
  Advocacy, International Rescue Committee, Washington, DC.......    25
    Prepared Statement...........................................    26

              Additional Material Submitted for the Record

Responses of Timothy Lenderking to Questions Submitted by Senator 
  Edward J. Markey...............................................    40

Press Report Submitted by Senator Todd Young: ``Houthis 
  indoctrinating children in Yemen `with violent, anti-Semitic 
  and extremist material' '' by Campbell MacDiarmid, dated April 
  15, 2021.......................................................    43

                                 (iii)

  
 
                          U.S. POLICY ON YEMEN

                              ----------                              


        <greek-l>INSERT DATE HERE deg.WEDNESDAY, APRIL 21, 2021

                           U.S. Senate,    
             Subcommittee on Near East, South Asia,
                Central Asia, and Counterterrorism,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:06 p.m. in 
room SD-106, Dirksen Senate Office Building, Hon. Chris Murphy, 
chairman of the subcommittee, presiding.
    Present: Senators Murphy [presiding], Shaheen, Booker, Van 
Hollen, Young, and Hagerty.

            OPENING STATEMENT OF HON. CHRIS MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. I am pleased to bring the subcommittee 
together today for our first meeting of the year. Our first 
hearing today is going to be on a critical topic, U.S. policy 
on Yemen, and I, and the ranking member, will make some opening 
remarks and then we are eager to begin discussion.
    Just 2 weeks after he took office, President Biden said 
this: ``This war has to end.'' He called the war in Yemen what 
it is, a ``humanitarian and strategic catastrophe.''
    Those words from an American President are long overdue. It 
is a recognition that the United States has aided and abetted a 
war for years that has caused untold suffering for millions of 
Yemenis and has undermined U.S. national security interests.
    I first sounded the alarm on this crisis back in 2015. At 
the time very few people in the United States Senate knew 
anything about the Yemen civil war, but today that I am hopeful 
that our participation in this national security cataclysm is 
coming to an end.
    President Biden has announced an end to all American 
support for offensive operations in the war in Yemen, including 
relevant arm sales. He has reversed the designation of the 
Houthis as a terrorist organization, which threatened to cut 
off humanitarian aid to millions.
    He has resumed aid that was suspended by the previous 
Administration to northern Yemen and he has, of course, 
appointed Tim Lenderking as the Special Envoy. We are honored 
to have him here today.
    He is leading U.S. diplomacy efforts to end this war. Mr. 
Lenderking is off to a fast start. He will talk to us about 
that today. But America needs to supplement his diplomatic 
efforts by properly using its leverage with the parties to the 
conflict.
    It was the right move to suspend arms sales to Saudi Arabia 
and to conduct a review of sales to the UAE 2 months ago.
    Today, I will be honest, I am concerned by recent reports 
that the Administration may be moving forward with portions of 
these sales.
    I would urge that any determination of offensive arm sales 
to these two troubled partners take into consideration some key 
factors, including the recipients' past record and whether the 
arms or services in question were previously misused or could 
potentially be used offensively in the future, especially 
against civilians or civilian infrastructure.
    Frankly, the track records of these two countries in that 
respect are not good. Recent reporting suggests that the 
Administration intends to move forward with the sale of Reaper 
drones to the UAE.
    The Emiratis already have a record of illegally 
transferring weapons to Salafist militias in Yemen, and 
Congress, frankly, has not received sufficient assurances that 
such transfers will not happen again.
    It is true the UAE has for today suspended its military 
operations in Yemen. But things change fast in the Middle East, 
and let us be honest, we cannot know with certainty what 
nations in the Middle East are going to do with the weapons 
that we have sold them.
    That is why we have never sold F-35s or weaponized drones 
to anyone except for Israel in the region before. But make no 
mistake, my call for more pressure on Saudi Arabia or the UAE 
to bring this war to an end does not ignore the malign Houthi 
behavior in Yemen.
    They are guilty of war crimes in this conflict. They 
recruit child soldiers. They deliberately hold up aid, do not 
allow it to get to the citizens that are under areas of their 
control.
    Senator Young and I have called on the Houthis to urgently 
stop their offensive in Marib and avoid the needless death and 
destruction that would come from a protracted battle there.
    The Houthis need to come to the table, just like the Yemeni 
Government and the Saudis. But if we can get the warring 
parties in Yemen to agree to a peace deal with their Saudi and 
Iranian backers supporting such an agreement, it could provide 
the grassroots for a new regional security architecture in the 
Gulf.
    The past few years have been nothing but escalation between 
Saudi Arabia and Iran, and it is my view that all of us would 
be better served by a detente between these two rather than a 
continuing endless escalating cycle of violence by proxy, and 
Yemen provide us with a test case for that theory.
    Finally, a word on the humanitarian crisis. The situation 
is still nightmarish, as the Special Envoy knows, for Yemenis.
    So we need, one, for donors to step up and provide the 
funding that is needed to fulfill this year's U.N. appeal, 
which is right now dangerously underfunded.
    Two, we need to resolve the blockade that is restricting 
fuel deliveries to Hudaydah. While a handful of vessels have 
been able to berth there, those supplies are only a band aid. 
They only will last a few more weeks.
    Fuel is a lifeline in Yemen. It is critical to power 
hospitals, ensure the provision of food and access to water, 
and generally help alleviate the suffering in the Yemeni 
people.
    There is just no excuse to deny these lifesaving fuel 
imports any longer, and the Saudis, they need to lift this 
blockade and the Yemeni Government needs to issue the permits 
to let the goods get through.
    With that, let me turn to the ranking member for his 
opening remarks.

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Well, thank you, Mr. Chairman, for our first 
subcommittee hearing together. I am looking forward to working 
with you on this subcommittee.
    I want to express my gratitude for you holding this first 
hearing on the topic of Yemen. It is a place that has occupied 
a great deal of our attention and concern for a long period of 
time.
    I would also like to thank today's witness, Special Envoy 
Tim Lenderking, for his devotion both in his current position 
and as Deputy Assistant Secretary of State.
    He has worked long and hard to achieve a diplomatic 
solution to the Yemen conflict. The resource piece eases the 
terrible suffering of the Yemeni people and sets the country on 
the path to stability.
    You and I have spent time together in the region, and I 
know you bring a level of expertise to this conflict that is 
most desperately needed.
    Mr. Chairman, last month marked the sixth anniversary of 
the start of this conflict, and I commend you for, as you 
indicated way back in 2015, getting deeply involved in this 
effort.
    It was one of the earliest things I became involved in when 
I came into the United States Senate. It makes me chuckle a bit 
to reflect that a very high-ranking member of the previous 
Administration once wrote a column. Did not call me out by 
name, but indicated that I might be involved in this conflict 
for political reasons.
    I cannot see any upside to that. But I care deeply about 
the national security and humanitarian amalgam of issues here 
in the region we are discussing.
    U.N. Special Envoy Martin Griffiths, together with regional 
and international partners, continues to work with Yemeni 
factions in search of a political settlement.
    But in spite of our best diplomatic efforts, the conflict 
has intensified in recent weeks. Iran-backed Houthi rebels have 
stepped up their operations against the city of Marib and have 
also stepped up their drone missile and rocket attacks on the 
Kingdom of Saudi Arabia.
    And just as the fighting in Yemen continues, so does the 
humanitarian catastrophe. Tens, perhaps hundreds, of thousands 
of Yemenis have died as the direct or indirect consequence of 
the fighting. Millions of others are displaced. Peace has been 
elusive thus far and the Yemeni people continue to suffer.
    A report issued earlier this month by the U.N. Office for 
the Coordination of Humanitarian Affairs estimated that 20.7 
million Yemenis are in need of humanitarian assistance and 
protection--20.7 million of our fellow human beings.
    Eleven point three million of these are children; 2.8 
million of them under the age of 5 years. One point eight 
million are pregnant and lactating women. Three point one 
million are people with disabilities and over 925,000 are 
people over the age of 60.
    Now, 6 years into this awful war, we are still faced with 
many, many questions. How do we end the fighting? How do we 
meet the immediate humanitarian needs of the Yemeni people?
    How do we ensure that those suffering are not co-opted by 
extremist organizations in the region? How do we help set Yemen 
on a positive long-term sustainable course?
    How do we remove the Iranian presence from the country? 
Well, my hope is that at the end of today's hearing, we will 
have a clearer sense of how the Biden administration plans to 
answer these compelling questions.
    I am encouraged by the President's early steps to 
prioritize and end the conflict, but we need to use our 
resources wisely, learn from past mistakes, and take a clear-
eyed look at our diplomatic options.
    I hope we hear today what the Biden administration plans to 
do differently from their predecessors to achieve our political 
and national security objectives and, perhaps most urgently, to 
help bring an end to the suffering of millions of innocent 
Yemenis.
    I know that you, Mr. Chairman, our colleagues on this 
subcommittee, and our witnesses all agree that a prompt and 
sustainable end to the fighting in Yemen is essential for the 
security of the region and for the security of American 
interests.
    Thank you again, Mr. Chairman, for your partnership on this 
issue and for scheduling this hearing today. I look forward to 
a good discussion and to an exchange of ideas on how the U.S. 
and our partners can help bring peace to Yemen.
    Senator Murphy. Thank you, Senator Young, and thank you for 
your years of commitment on this issue.
    Let me now introduce the witness, who, I hope, feels very 
safe. You are as socially distanced as you could possibly be 
from members of this committee.
    It is my privilege to introduce our Special Envoy for 
Yemen, Tim Lenderking. Mr. Lenderking previously served as the 
Deputy Assistant Secretary of State for Arabian and Peninsula 
Affairs in the Near East Bureau at the State Department.
    He is a career member of the Senior Foreign Service with 
postings all over the Middle East, having previously worked for 
NGOs in the refugee field.
    Mr. Lenderking, the floor is yours. Of course, we will have 
a second panel to give us a slightly different perspective. But 
we will include your full statement for the record, and we ask 
you now to summarize your remarks so that we have time for 
questions.

  STATEMENT OF HON. TIMOTHY LENDERKING, UNITED STATES SPECIAL 
   ENVOY FOR YEMEN, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Lenderking. Chairman Murphy, Ranking Member Young, 
members of the subcommittee, thank you for the opportunity to 
speak with you about U.S. policy on Yemen, and thank you on a 
personal note for all the support that you have given to this 
effort.
    The Biden/Harris administration has prioritized bringing 
about an end to the conflict in Yemen in support of U.N. 
efforts.
    When President Biden announced my appointment on February 
4th, he charged me with two specific tasks: reach a durable 
solution to the conflict and support immediate steps to 
mitigate the humanitarian crisis.
    Since my appointment, I have traveled to the region four 
times to do exactly that--push the parties toward a ceasefire, 
followed by inclusive political negotiations, and build 
international efforts--support for efforts to end the conflict.
    As a result, we have now achieved a greater international 
consensus on resolving this conflict than we had before along 
with more proactive engagement from key regional actors such as 
our European partners and the state of Oman.
    The U.N. Security Council enjoys an unusual amount of 
unanimity on solving the conflict in Yemen. This consensus will 
be critical in pushing for and maintaining a peace process.
    The parties are engaging in a constructive manner in a way 
that they have not for years. As a result of this 
Administration's focus on Yemen and sustained U.S. pressure, we 
have seen Saudi Arabia and the Republic of Yemen Government 
announce their support for a nationwide comprehensive 
ceasefire.
    There is now a greater acceptance that the Houthis will 
have a significant role in a post-conflict government in Yemen. 
The U.S. will continue to press the Saudis and the Yemen 
Government to ensure that they are taking the necessary steps 
to resolve the conflict in a responsible manner and to mitigate 
the humanitarian crisis.
    More work is needed to get the Houthis to put down their 
guns, abandon a military solution, and compromise for the sake 
of peace.
    The Houthis have thus far refused to accept the ceasefire, 
and instead remain focused on continuing their military assault 
on the city of Marib.
    At present, this offensive is the single biggest threat to 
peace efforts and is also having devastating humanitarian 
consequences. For nearly 6 years, Marib has been a haven of 
stability and a refuge for nearly 1 million internally 
displaced persons who have fled conflict elsewhere and have 
nowhere else to go.
    The Houthi takeover of the city is not imminent, but they 
continue to move closer to their goal of encircling the city, 
potentially cutting off a population of 1.8 million people, 
many of them already extremely vulnerable.
    Humanitarian relief organizations warn this offensive risks 
triggering a tipping point that would overwhelm an already 
stretched humanitarian response. If we do not stop the fighting 
in Marib now, it will trigger a wave of even greater fighting 
and instability.
    We are already witnessing this through increased fighting 
on other front lines, a significant increase in airstrikes, and 
more Houthi attacks on civilian and other infrastructure in 
Saudi Arabia than at any point in the conflict.
    We must leverage the international consensus, including 
here in Washington, and the engagement of regional actors like 
Oman to stop the offensive in Marib, which is an urgent 
humanitarian priority.
    Let me turn briefly to our efforts to address the 
humanitarian situation, since you both have raised that so 
urgently. There is no greater priority when it comes to Yemen. 
The level of suffering there is unimaginable.
    You have all seen the disturbing images and dire reports 
from inside the country. At least one Yemeni child dies every 
10 minutes from preventable causes, and this war has gone on 
for more than 6 years.
    I think about that every day. The roots of this crisis are 
deep. At the beginning of the war, humanitarian leaders stated 
that Yemen, after 5 months, looks like Syria after 5 years 
because the situation in Yemen was already precarious before 
this war began.
    And now the economy is collapsing, leaving families unable 
to purchase even the most essential goods. Health care and 
other basic services are almost nonexistent for most Yemenis.
    Humanitarian assistance is offering a critical lifeline for 
millions and helping prevent a famine. But it will never be 
enough. It cannot restore the economy or repair broken 
healthcare systems.
    In fact, as long as the war continues in places like Marib, 
the humanitarian crisis will continue to get worse. There are 
no quick fixes. Only through a durable end to the conflict can 
we begin to reverse the crisis.
    In the meantime, we must do everything we can to mitigate 
the suffering, and for that reason, I would like to state 
unequivocally that fuel must be allowed to enter regularly 
through Hudaydah port.
    The Republic of Yemen Government bears responsibility to 
address this issue, and Saudi Arabia must not stand in the way 
of it doing so.
    Similarly, the Houthis bear responsibility for then 
ensuring that fuel moves freely throughout the areas under 
their control, and for abiding by their commitments to the 2018 
Stockholm agreement to use port revenues to pay salaries of 
Yemeni civil servants, salaries that would provide an urgently 
needed purchasing power to households living on the margins.
    I have raised this issue regularly with senior Yemeni and 
Saudi officials. Although four ships arrived last month and 
additional ships are moving now as we speak, it is not enough.
    I am heartened, however, to see a notable increase in the 
monthly flow of food into Hudaydah. March 2021 saw 446,000 tons 
of food enter the port, one of the highest amounts in 5 years, 
and 45 percent above the year 2020 average.
    This, too, is not enough. But these figures do show that 
the system can work with cooperation from the parties to the 
conflict and effective U.N. oversight, and I am proud the 
United States remains one of the largest humanitarian donors to 
Yemen.
    The movement of humanitarian and commercial goods has 
consistently been a casualty of the Yemen conflict, whether it 
is movement of goods through ports, roads, and across front 
lines, diversion of commercial goods, or bureaucratic 
impediments to humanitarian assistance.
    Houthi obstruction of goods and aid has been particularly 
abhorrent, but they are not the only ones who have engaged in 
this behavior. These persistent challenges make the imperative 
a comprehensive nationwide ceasefire all the more important.
    Although we can and must tackle these challenges one by 
one, after 6 years it is clear that only by stopping the 
fighting can we durably address the obstacles to the free flow 
of humanitarian and economic activity.
    As you can see, the challenges we face are immense. Only 
through a united international effort based on a clear nuanced 
understanding of the situation can we hope to make progress 
toward reaching the goals I have outlined and which you have 
stressed.
    All of you play an important role in that effort, and that 
is why I am here with you today.
    Thank you for your support, and I look forward to your 
questions.
    [The prepared statement of Mr. Lenderking follows:]

                Prepared Statement of Timothy Lenderking

                              introduction
    Chairman Menendez, Ranking Member Young, Members of the 
Subcommittee, thank you for the opportunity to speak with you about 
U.S. policy on Yemen. The Biden-Harris administration has prioritized 
bringing about an end to the conflict in Yemen, in full support of U.N. 
Special Envoy Martin Griffiths' efforts, and has dedicated extensive 
resources to easing the humanitarian situation in the country. I look 
forward to updating you on the progress we have made in these last few 
months, the challenges that we still face, and the efforts we can 
undertake together to help bring about an end to this terrible war. As 
you know, the President and the Secretary believe--and I share their 
conviction--that Congress plays an essential role in the 
Administration's efforts and is key to helping end the conflict in 
Yemen.
    Our primary goal in Yemen remains protecting long-term national 
security objectives for the United States, while improving the 
situation of Yemeni civilians themselves. This requires a unified, 
stable Yemen that is free from foreign interference; that controls its 
own borders and exercises sovereignty over its entire territory--
particularly to counter terrorist elements; and that can contribute to 
safeguarding navigational rights and freedoms in the Bab Al Mandeb 
strait, essential to global shipping. That means not only curtailing 
the malign influence of Iran in Yemen, but also supporting a Yemen 
where no foreign country has undue influence or control. Yemen's 
relationship with its neighbors should be one of economic and regional 
cooperation, not one of military intervention. Over the course of this 
hearing, I hope to provide some insight into how we can achieve that 
goal--as well as what stands in our way.
                            current efforts
    Since President Biden announced my appointment on February 4, I 
have travelled to the region four times to push the parties toward a 
ceasefire and political negotiations. I have worked to build an 
international and not just regional consensus toward solving the 
conflict. On my second trip, I met or spoke with leadership of all the 
six countries of the Gulf Cooperation Council and the Republic of Yemen 
Government. These leaders expressed a genuine commitment to our common 
goal; they believe, as we do, that the time to end the conflict in 
Yemen is now.
    In subsequent trips, I have made multiple stops in Muscat and 
Riyadh. The Government of Oman is playing an integral and highly 
productive role in facilitating negotiations. I can attest to the 
Sultanate's contribution, to the personal commitment of Oman's 
leadership and to their unstinting efforts toward facilitating dialogue 
to resolve this conflict. This level of Omani engagement marks a 
positive, new development that can help mitigate some of the challenges 
we have faced in past peace efforts.
    For years, the United States has communicated to the Saudi 
Government that there is no military solution to this war. Since my 
appointment, I have pressed Saudi officials to pursue peace seriously. 
As a result of consistent U.S. engagement, we believe the Saudis are 
ready to end the war in a responsible way. They are in agreement with 
us that the time for peace is now. Our Saudi counterparts are working 
closely with the U.N. Special Envoy and with the Government of Oman to 
achieve this objective.
    What has been most striking to me is the recognition and 
understanding of the necessary role of Houthi representation in any 
post-war Yemeni Government. No longer is anyone suggesting Houthi 
representatives be locked out of any future settlement--a popular 
refrain when the conflict began. There is an acceptance that the 
Houthis will have a significant role in a post-conflict government, if 
they meaningfully participate in a peaceful political process like any 
other political group or movement. The Houthi leadership has received 
this message clearly. I again call on the Houthi leadership to take 
this opportunity to stop the fighting, come to the table, and assume a 
productive and integral role in a better future for Yemen.
    In Washington, discussions about the Yemen conflict focus on the 
regional actors. We cannot forget, however, that this is at its heart 
an intra-Yemeni conflict, rooted in longstanding grievances and 
tensions that have been exacerbated by years of war and the 
proliferation of armed groups. As such, only Yemenis can truly resolve 
this conflict--the kind of durable resolution that is needed to reverse 
Yemen's humanitarian crisis requires a plan for addressing those 
grievances. Although I find the regional commitment of Gulf countries--
including Saudi Arabia--to end this conflict promising, it alone is not 
enough to bring Yemen the relief it needs. More work is needed to 
ensure that all Yemeni parties, particularly the Houthis, are ready to 
put down their guns and compromise for the sake of peace. This will 
require a unified, international effort.
    As the international community knows, U.N. Special Envoy Griffiths 
has a sound proposal on the table to bring about an end to this war. It 
supposes a nationwide ceasefire that includes actions to facilitate the 
movement of humanitarian goods and increase economic activity followed 
by a transition to inclusive political talks with meaningful 
participation from women, civil society, and marginalized groups. It is 
a proposal that all sides seem to support in theory; we are working now 
to turn it into reality.
    We must be realistic about this: we face significant challenges on 
the road to peace. I maintain, however, that we have momentum toward 
bringing the conflict to an end, and we are working hard to maintain 
and build upon this progress.
                          humanitarian crisis
    I want to start by addressing the humanitarian situation. There is 
no greater priority when it comes to Yemen. The level of suffering 
there is unimaginable. At least one Yemeni child dies every 10 minutes 
from preventable causes. And this war has gone on for more than 6 
years. I think about that every day.
    The roots of this crisis are deep. At the beginning of the war, 
humanitarian leaders stated that ``Yemen after 5 months looks like 
Syria after 5 years,'' because the situation in Yemen was already so 
precarious before this war began. And now the economy is collapsing, 
leaving families unable to purchase even the most essential goods. 
Healthcare and other basic services are almost non-existent for most 
Yemenis. Humanitarian assistance is offering a critical lifeline for 
millions and helping prevent a famine, but it will never be enough. It 
cannot restore the economy or repair broken healthcare systems. In 
fact, as long as the war continues, the humanitarian crisis will 
continue to get worse. There are no quick fixes. Only through a durable 
end to the conflict can we begin to reverse this crisis.
    In the meantime, we must do everything we can to mitigate 
suffering. And for that reason I would like to state unequivocally that 
fuel must be allowed to enter regularly through Hudaydah port. The 
Republic of Yemen Government bears responsibility to address this 
issue, and Saudi Arabia must not stand in the way of it doing so. 
Similarly, the Houthis bear responsibility for then ensuring that fuel 
moves freely throughout the areas under their control. In all 
instances, the United States opposes restrictions that arbitrarily 
delay or deny essential commodities from getting to the civilians who 
need them most.
    Fuel imports into Hudaydah and the neighboring Saleef port have 
been very low for the past 2\1/2\ months. Fuel is the lifeblood of all 
economic activity. Fuel is critical to support the delivery of 
humanitarian assistance--to power hospitals, ensure the provision of 
food and access to water, and generally help alleviate the suffering of 
the Yemeni people. While fuel continues to flow through other ports, 
these ports cannot fully make up for flows through Hudaydah and Saleef 
ports. We are heartened that commercial imports of food and other 
commodities continue to move through the port at normal rates, as do 
goods imported for humanitarian assistance purposes. We know that fuel 
shortages, however are making the transport of these goods more 
expensive.
    I have raised this issue regularly with senior Yemeni and Saudi 
officials. Although four ships arrived last month and the Republic of 
Yemen Government has announced its intention to allow in three more, it 
is not enough.
    The recent fuel shortages are not a new issue. The international 
community recognized the importance of establishing mechanisms to 
ensure the continued flow of goods through Hudaydah port in the 2018 
Stockholm Agreement. In that agreement, the parties reached a 
compromise that called for depositing Hudaydah port revenues in a 
special account in the Central Bank of Yemen branch in Hudaydah and 
using the funds to pay the salaries of Yemeni civil servants--salaries 
that would have provided urgently needed purchasing power to households 
living on the margins. Unfortunately, as the U.N. Panel of Experts has 
documented, the Houthis have repeatedly violated this agreement and 
diverted those funds to their war effort, contributing to the current 
impasse.
    I am heartened, however, to see a notable increase in the monthly 
flow of food into Hudaydah. March 2021 saw 446,025 tons of food enter 
the port, one of the highest amounts in 5 years and 45 percent above 
the 2020 average. It is, of course, not enough, but shows that the 
system can work with cooperation from the parties to the conflict and 
effective U.N. oversight.
    The movement of humanitarian and commercial goods has consistently 
been a casualty of the Yemen conflict--whether it is movement of goods 
through ports, roads, and across front lines; diversion of commercial 
goods; or bureaucratic impediments to humanitarian assistance. All of 
these are unacceptable. These persistent challenges make the imperative 
of a comprehensive ceasefire all the much more important. Although we 
can and must continue to tackle these challenges one by one, after 6 
years it is clear that only by stopping the fighting can we durably 
address the obstacles to the free flow of humanitarian and economic 
activity.
                    the houthi assault against marib
    The single biggest threat to our efforts right now is the Houthis' 
single-minded focus on a military assault on the city of Marib. In the 
midst of 6 years of war, Marib has been a haven of stability, and a 
refuge for nearly 1 million internally displaced persons who have fled 
conflict elsewhere and have nowhere else to go. While international 
attention to the battle for this strategic city held by the Republic of 
Yemen Government has grown, the Houthis have slowly advanced. A Houthi 
takeover of the city is not imminent, but they continue to move closer 
to their goal of encircling the city, potentially cutting off a 
population of 1.8 million, many of them extremely vulnerable. 
Humanitarian relief organizations warn this offensive risks triggering 
a tipping point that would overwhelm an already stretched humanitarian 
response. This offensive also risks provoking further fighting and 
instability in a way that poses the greatest threat to our current 
peace efforts.
    We must ask ourselves: are the Houthis seriously interested in 
peace if they continue to advance on a city where they have faced such 
heavy opposition, especially in the light of the March 22 Saudi 
announcement proposing an easing of restrictions on Hudaydah Port and 
Sana'a Airport and a comprehensive, nationwide ceasefire?
     houthi attacks threaten american citizens and the role of iran
    One of the most important roles the U.S. Government plays anywhere 
in the world is protecting U.S. citizens abroad. I must stress that 
every time the Houthis launch a missile or an armed drone into Saudi 
Arabia--or elsewhere in the Gulf--there is a chance they will injure or 
kill an American citizen. These attacks have reached a fever pitch. Our 
Saudi partners have so far prevented a mass casualty event, and it is 
our hope that this never occurs, but the potential loss of American 
life is something that literally keeps me up at night. Since the year 
started, the Houthis have fired more than 150 UAVs into Saudi 
territory. This tally does not count the ballistic missiles they have 
launched. During one of my recent trips to Riyadh, the Houthis struck a 
civilian airliner in the southern Saudi city of Abha just minutes 
before I entered a meeting with the Saudi Foreign Minister. Thankfully, 
no one was hurt in the attack.
    The Houthis continue to launch explosive boats towards Saudi ports 
and often fire missiles that hit key Saudi civilian infrastructure. 
Similarly, media reports note that the Houthi attacks have routinely 
threatened Aramco oil facilities in Jeddah, Dhahran, and Ras Tanura. 
These don't just pose a threat to Saudi Arabia, they threaten the more 
than 70,000 Americans who live and work in Saudi Arabia, close to the 
sites the Houthis have struck. We have warned the Houthis multiple 
times about the danger of killing Americans. The Administration has 
publicly committed to help defend Saudi Arabia from these attacks. In 
doing so, we protect American lives and ensure the free flow of goods 
and energy.
    That brings me to the role of Iran in this conflict and the need to 
be candid about the growing Houthi military capability due to support 
from Tehran. The Houthis receive considerable funding, training, and 
other support from Iran. Last October, an Islamic Revolutionary Guard 
Corps General named entered into Houthi-controlled areas of the country 
and is being called the Iranian ``ambassador'' ``ambassador'' to the 
Houthis. His continued presence in Sana'a casts doubt upon the Houthi 
assertion that they are not a proxy of Iran. If the Houthis are not 
acting as a proxy or partner of Iran, it is time they engage seriously 
in our efforts to reach agreement on a ceasefire and resume political 
talks. Each day the war continues, their relationship with Iran 
deepens. It is critical that we reach a comprehensive peace agreement 
that not only stops fighting between the Houthis and Saudi Arabia, but 
that forces the Houthis to participate in a peaceful political process 
and reduces the instability that Iran and other malign actors will seek 
to manipulate.
             importance of the republic of yemen government
    With regard to the Republic of Yemen Government, President 
Abdrabbuh Mansour Hadi remains the legitimate leader of Yemen. He was 
chosen in the last election held before the war, and U.N. Security 
Council Resolution 2216 recognizes his legitimacy as President. My 
recent engagements with President Hadi over the last few months have 
been productive and encouraging. I believe he has assembled a team that 
can bring about an inclusive and sustainable political solution to the 
conflict. My communication and partnership with the Yemeni Prime 
Minister and Foreign Minister is also strong, and we have worked 
closely to achieve tangible gains for the people of Yemen in the face 
of great adversity over the last few months. I believe that they are 
ready to compromise for the sake of the Yemeni people.
    Many people have pointed out that the war has led to a 
proliferation of other power centers, outside of the Republic of Yemen 
Government. This is true, and it must be considered as part of a peace 
process. I would also stress, however, that institutions matter. Rule 
of law matters. Absent that, there is no hope for an orderly transition 
process. We must continue to work with the legitimate government of 
Yemen as we seek to reach a political solution.
          economic support to the republic of yemen government
    I want to come back to the economic situation, and particularly the 
macroeconomic situation. Due to rising inflation, continued political 
instability, and limitations on the Central Bank of Yemen's ability to 
conduct effective monetary policy, the country's economy continues to 
suffer. The value of the Yemeni riyal has fluctuated significantly as a 
result of this instability, and this has real, serious consequences for 
Yemeni citizens. Secretary Blinken personally attended the virtual 
March 1 High Level Pledging Conference for Yemen to highlight the need 
for greater donor support; he has spoken with numerous counterparts in 
Europe and the region to emphasis this point. We appreciate the 
generous contributions of our international partners at the March 
pledging conference and call on our partners to disburse these pledges 
in a timely fashion, but no amount of humanitarian aid or pledges will 
prevent a collapse of the Yemeni economy. That will depend on building 
sufficient foreign exchange reserves to sustain essential imports, on 
restoring national economic institutions, and on empowering the private 
sector to develop Yemen's resources and meet the needs of the 
population without interference from parties to the conflict. For this 
reason, we also ask all concerned parties to join us in finding ways to 
support the legitimate government economically. The Yemeni Prime 
Minister and his new unity cabinet have demonstrated a real commitment 
to strengthening the economy and providing services, consistent with 
the Riyadh Agreement. This comes even after the entire cabinet was 
nearly assassinated in December by the Houthis in an attack that killed 
more than of 20 innocent bystanders.
    We appreciate the Saudi Government's March 30 announcement that it 
would provide $422 million of subsidized fuel derivatives to the 
Government of Yemen, and we are working with our Saudi and Yemeni 
counterparts to ensure this much-needed assistance gets to where it is 
needed as soon as possible. We hope that the Saudis--and other 
partners--will continue to find ways to support the Republic of Yemen 
Government in the face of extreme economic adversity. Improving the 
Yemeni Government's ability to manage resources and deliver goods to 
its people can provide a strong signal of hope for the more prosperous 
future that awaits Yemen if it achieves peace and rebuilds. But without 
a unified and functioning Yemeni Government heading into peace talks, 
these efforts will not succeed.
                    human rights and related issues
    I am mindful of the human rights situation and how violations of 
international humanitarian law in this armed conflict and ongoing 
violations and abuses of human rights can threaten prospects for a 
durable solution to the conflict. Significant human rights issues are 
commonplace in Yemen including: unlawful or arbitrary killings; forced 
disappearances; torture and cases of cruel, inhuman, or degrading 
treatment or punishment; harsh and life- threatening prison conditions; 
arbitrary arrest and detention; and political prisoners. Unlawful 
recruitment and use of child soldiers, especially by the Houthis and 
serious restrictions on the exercise of the right to freedom 
expression, including by the press and through the internet, including 
violence, threats of violence, or unjustified arrests or prosecutions 
against journalists, remain of serious concern. We continue to advocate 
for the release of wrongfully detained person, and we use tools at our 
disposal to encourage improved respect for human rights in Yemen. The 
scars these abuses are leaving on Yemen are deep and will continue to 
affect the population for decades. We believe accountability for these 
actions is a critical part of Yemen's recovery.
                               conclusion
    As you can see, the challenges we face are immense. Only through a 
unified international effort based on a clear, nuanced understanding of 
the situation can we hope to make progress toward reaching the goals I 
have outlined. All of you play an important role in that effort, and 
that is why I am here today. Thank you for your support, and I look 
forward to your questions.

    Senator Murphy. Thank you very much for your testimony and 
for your service. I have a long list of questions and so I will 
defer, hoping that my colleagues ask some of them, and then I 
will ask a few at the end.
    So let me go first to Senator Young and then to Senator 
Shaheen.
    Senator Young. Well, Mr. Lenderking, thank you again for 
being with us today. I, too, have a long list of questions, and 
I see we have got 5-minute rounds, which is perfect, because 
that will keep me focused.
    So I was struck by a line in your testimony where you 
describe the role of Houthi representation in any post-war 
Yemeni Government.
    Let me go ahead and quote that line: ``There is an 
acceptance that the Houthis will have a significant role in a 
post-conflict government if they meaningfully participate in a 
peaceful political process, like any other political group or 
movement.''
    If their role in the government is now established, Mr. 
Lenderking, why are they continuing to launch assaults on 
places like Marib?
    Mr. Lenderking. My view, Senator, is that the Houthis may 
not have made a determination on their own to move into a 
political process. I think that is partly why we see them 
raising the bar and imposing maximalist demands when meeting 
what we feel is a fair and reasonable U.N. plan to move to a 
ceasefire and move into political talks.
    There are, clearly, divisions within the movement. I think 
there are hardliners and moderates----
    Senator Young. Right.
    Mr. Lenderking. --just to use conventional terminology, and 
there is no question that hardliners have a very strong 
influence.
    I believe that is with the support of the military 
component of the Houthi movement, and I believe those elements 
are continuing to drive on the prospects of a military solution 
and using Marib is one of the test cases.
    Senator Young. Thank you. I know you have visited with 
Houthi officials in Muscat. Are the Houthis prepared to halt 
all of their offensive operations? And if the answer is yes, do 
you have a sense of what conditions under which that would 
occur?
    Mr. Lenderking. They have not hitherto shown the 
inclination or the commitment to do so, and I think that is the 
moment that we are in now.
    We are really trying to test and push on those moderate 
elements, which may be more open to negotiation and ceasefire 
than the hardliners, and I just think we do not know that yet.
    We have not seen from Houthi behavior that there is 
openness to abandoning the offensive in Marib.
    Senator Young. What interests might the Houthi hardliners 
let us stick with your characterization--have in peace?
    Mr. Lenderking. They may not have any interest in peace, in 
which case our cause will be very difficult, and that is where, 
I think, we bring international pressure to bear.
    The number of levers that we have to influence Houthi 
behavior as the United States are, honestly, quite limited. 
But, nevertheless, I think the Houthis appreciate and, in some 
ways, have welcomed the U.S. renewed engagement on the Yemen 
file because they see us as an actor that can influence Saudi 
Arabia to help make sure that Saudi Arabia fulfills its 
responsibilities in a responsible manner.
    Senator Young. And might the U.N. Security Council be an 
appropriate venue for that? It is known for complicating U.S. 
foreign policy objectives. But, nonetheless, you indicate there 
is an unusual amount of unanimity on Yemen. Could you just 
speak to that, sir?
    Mr. Lenderking. I do think so. Among the many engagements 
that I have had over the last couple of months, I have met with 
the P5, the United States and the other principal members of 
the Security Council, and in these conversations, I find that 
there is a strong convergence of approaches toward Yemen and 
that includes the Chinese and that includes the Russians and I 
think that is something that is very important to build upon. 
That gives us a little bit of leverage, I think.
    Senator Young. That is encouraging. Are the Houthis an 
Iranian proxy?
    Mr. Lenderking. There is no doubt that there is a very 
significant relationship between Iran and the Houthis. The 
Iranians have aided, abetted, helped, arm, train, and teach 
Houthis, have given them armaments and upgraded their weaponry 
in their arsenal to enable them to do the kinds of almost daily 
attacks on Saudi Arabia.
    Senator Young. So it sounds like, over the years they have 
become a proxy, which would sort of be my assessment of this, 
my reading of the history. Would you agree with that?
    Mr. Lenderking. I would say that the Houthis argue that 
they are not. I just want to put that data point out there----
    Senator Young. Okay.
    Mr. Lenderking. --and I think that is an important thread 
for us to pull on in our efforts, going forward.
    Senator Young. Okay. Thank you.
    Senator Murphy. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman and Ranking Member 
Young, and thank you to Mr. Lenderking for being here.
    I too, like the chair and ranking member, appreciate the 
focus that President Biden has put on Yemen and your 
appointment.
    I want to just follow up a little bit on Senator Young's 
questions about the Houthis, because do we assume that if Saudi 
Arabia were willing to come to the table and negotiate and that 
the Houthis agreed to stop shelling into Saudi that we could 
reach an agreement around Yemen that might end the fighting?
    Or is there any will at all on the part of either parties 
to actually end the fighting?
    Mr. Lenderking. I think there is some will that we have 
seen so far, and by that, if one looks at the recent history, 
there have been, you know, very constructive engagements in 
Kuwait in 2016 and Stockholm in 2018.
    They faltered. They broke down very shortly after 
agreements were signed or made or hands were shaken, and we do 
not want to fall into those same patterns.
    We are looking at lessons learned from those two 
experiences, and I say that there has been constructive 
engagement between the parties in the last 2--last couple of 
months in a way that I do not think we have seen in a number of 
years. That does give me some hope that there will be a 
commitment for the parties to reach a final deal.
    Senator Shaheen. Well, I certainly share Chairman Murphy's 
concern about any resumption of arms sales to Saudi Arabia, as 
long as--well, generally, but particularly around what is 
happening in Yemen.
    And if there are ways that we can share with the Saudis our 
concern and encourage them to move forward, members of 
Congress, I hope you will let us know that because I think that 
is an issue.
    I really wanted to talk a little bit about the role of 
women in Yemen as we are looking at negotiations. As I am sure 
you are aware, we have a law in the United States called Women 
Peace and Security that was signed into law in 2017 that 
requires that our foreign policy prioritize women's 
representation and gender considerations in all peace and 
conflict settings.
    And my understanding is that this has been a real issue in 
Yemen, that as we have talked to women representatives from 
Yemen, they feel totally cut out by the United Nations of peace 
negotiations, and I appreciate that that is really the next 
panel.
    But since I am not going to be able to get back here to ask 
this question, I will ask you, are there ways that we can 
encourage the U.N. to make a priority of including Yemeni women 
as they are looking at their activities in the country, and 
what are you doing as our lead negotiator and envoy to address 
inclusion of women?
    Mr. Lenderking. Well, thank you very much, Senator. Very 
important question, and I very much agree that the role of 
women has been downplayed hitherto, and it is important that we 
not continue that pattern.
    On my end, we have a regular dialogue with Yemeni female 
leaders, both inside and outside Yemen. I have made it a point 
to keep in touch. Most of this, unfortunately, is virtual, 
given the state of COVID around the world and the difficulties 
of getting into Yemen itself.
    But I take a lot of pride in the fact that we have a 
regular dialogue with Yemeni women leaders, and I think it 
gives us the ability to better understand the internal 
circumstances in Yemen and to leverage that to ensure that, 
going forward, Yemeni women will be represented vigorously at 
any sort of peace talks.
    Senator Shaheen. So how can we influence the U.N. to 
encourage them to take a similar approach?
    Mr. Lenderking. That is part of the conversation that we 
have with the U.N. team, and Secretary Blinken has also spoken 
to the Yemeni prime minister about this issue, when as we begin 
to think--I hope that day will come soon--when we can begin to 
think about delegations who would begin to undertake peace 
talks that they be inclusive.
    So we are taking a sort of a multi-faceted and well-rounded 
effort here to try and make sure that this actually happens.
    Senator Shaheen. I appreciate that. And I am out of time, 
but just to be clear, as I know you are probably aware as are 
many others, that this is not just about including women 
because it looks good.
    It is because the data shows that when women are involved 
in conflict resolution, it means that the resulting agreement 
is 35 percent more likely to last for 15 years or more.
    So there are good data-driven reasons why we need to have 
women at the table as we are looking at negotiations, and it 
seems to me that this should be obvious not just to the United 
States but to the U.N. and to others who are going to be 
interested in a resolution of this conflict.
    So thank you very much for your good work.
    Mr. Lenderking. No, thank you, and just to add on to that, 
I attended a roundtable yesterday in which that point was made 
and the importance of not waiting until we get to peace talks 
to see that women's views are brought into the process.
    And so I can assure you that that will be a priority for 
me, going forward. Thank you.
    Senator Shaheen. Thank you.
    Senator Murphy. Thank you, Senator Shaheen.
    We have a vote pending on the floor. We are going to keep 
the hearing going, and Senator Young and I will trade off.
    Senator Hagerty was next but I think he went to vote. So we 
have a few other members who are joining us virtually. Senator 
Markey would be next.
    Senator Markey--so we may have people going to and from 
votes. If Senator Markey is not there, how about Senator Van 
Hollen?
    Senator Van Hollen. Yes. Thank you, Mr. Chairman, and, 
thank you, Mr. Lenderking, for your leadership and your 
testimony.
    I saw reports of some dialogue between Saudi officials and 
Iranian officials regarding different regional disputes, the 
conflicts, and Yemen being at the top of that list.
    Can you give us any readout about what may have been 
discussed at that meeting and whether any progress was made?
    Mr. Lenderking. Senator, thank you. I am eager to learn 
more about that meeting myself, which reportedly took place 
earlier this month.
    We, certainly, regard that contact between the Saudis and 
the Iranians, whether it is on Yemen or other regional issues, 
is valuable and important.
    The more that these two countries can lower the temperature 
in the region, the better off any of the regional conflicts in 
which these two players are set up as opponents will be.
    So I am heartened to see the reports that such a meeting 
took place and I look forward to receiving further details 
about it.
    Senator Van Hollen. Yeah, I took it as a promising sign, 
although we never know where it will end up. But you mentioned 
in your testimony issues of restrictions on fuel imports and 
the need to open up the port.
    How big of a factor and sticking point is that, in your 
view, to a political resolution of the dispute?
    Mr. Lenderking. I think it is a key part, certainly, of the 
economic and humanitarian situation in Yemen. What we want to 
do is avoid politicizing any of the economic issues that are 
vital to the safety and security of Yemenis.
    So while I say that, and I appreciate Secretary Blinken's 
intervention here to make this happen, the movement of fuel 
ships and I stated unequivocally that this is a principle that 
we must continue--it cannot just be seven ships now or eight 
ships now. It has to be open ended, free flowing with minimal 
bureaucratic impediment to make sure that the ports are open 
and receiving goods to the greatest of their ability.
    So I think let us get this issue off the table. This should 
not be a factor in the political discussions going forward. 
There should be no impediment imposed by any party and no 
obstruction imposed by any party on the ground or at sea to the 
movement of vital economic and humanitarian supplies.
    Senator Van Hollen. Thank you. And under what circumstances 
can you imagine Iran deciding to stop providing material 
support to the Houthis?
    I imagine that would be as part of a political settlement--
an overall settlement. But what are the major ingredients, in 
your view, that need to be resolved to get to that point?
    Mr. Lenderking. I think you are exactly right, Senator, 
that as we move closer to a political settlement this is the 
best way to minimize Iran's influence in Yemen, because right 
now, I do not see any indications that Iran supports a 
political solution.
    What I see is continued aiding and abetting and arming of 
Houthis by the Iranians so that they can continue attacking 
Saudi Arabia and, unfortunately, those attacks have risen quite 
strongly in the last couple of months.
    They are also threatening shipping in the Bab-el-Mandeb, 
this vital, vital strait that continues on up to the Red Sea.
    So this is utterly unacceptable to the international 
community, and I think that the more we push forward in this 
peace effort, we have to keep an eye on this particular facet.
    I would like to see progress, obviously, made by my 
colleague, Rob Malley, the Special Envoy for Iran in his 
efforts in Iran. I would hope that that would bear some fruit 
for the Yemen conflict but I am not holding my breath, and I 
cannot wait for good will to break out between the United 
States and Iran.
    We have got urgent issues in Yemen. We need to push forward 
as best we can with the tools that we have.
    Senator Van Hollen. Well, thank you. Thank you, Mr. 
Chairman, and best wishes on your important mission.
    Senator Murphy. Thank you, Senator Van Hollen. I believe 
Senator Hagerty has rejoined us.
    Senator Hagerty. Yes. Thank you, Mr. Chairman. I appreciate 
it.
    Special Envoy Lenderking, first, I want to thank you for 
your willingness to take on this incredibly difficult task of 
securing a peaceful resolution to the Yemen conflict.
    Your reputation as a skilled diplomat in the Gulf and many 
other regions is impeccable, and I know you have been dealing 
with the Yemen problem for many years. So it is important for 
us to hear your expert view.
    Earlier this year, the Biden administration revoked the 
designation of the Houthis as a foreign terrorist organization, 
ostensibly, to facilitate the very peace process that you are 
tasked to promote.
    But at virtually the same time, they were--in virtually the 
same time they were taken off the FTO list. The Houthis were 
attacking Saudi Arabia with missiles and drones and assaulting 
the city of Marib.
    As you describe in detail in your very candid written 
testimony, this is the circumstance that occurred as we left 
the FTO status.
    So my question is this. Given the Houthis' continued 
attacks against civilians and against regional neighbors, has 
the Biden administration's revocation of the Houthis' FTO 
designation had its intended effect of encouraging the Houthis 
to make peace? Or have the Houthis simply been emboldened to 
continue their extremist course?
    Mr. Lenderking. I think, Senator, that if we look at the 
past year we see a steady rate of Houthi attacks on Saudi 
Arabia.
    So I do not think one can attribute attacks in January and 
February to the undesignation--undesignating of the 
organization, and I do think that increased pressure on the 
Houthis is definitely necessary sort of across the board.
    But they have kept up a very aggressive tempo of attacks 
and I think that relates more to the supply of weapons and 
Iran's equities in Yemen, if you will, than to steps that we 
have taken.
    And of course, the Biden administration did this primarily 
not because of any love for the Houthis--I mean, I want to be 
100 percent clear on that--but because the humanitarian 
implications of the designation would have been quite dire, and 
I think looked at through that lens the Biden administration 
said the humanitarian issue is of paramount importance.
    We have to do everything we can to support it and the 
designation is not--does not fit with that priority.
    Senator Hagerty. I yield my time back, Mr. Chairman.
    Senator Murphy. Thank you very much, Senator Hagerty.
    Let me ask a series of questions, and if we have others 
join, I will ask them to finish off.
    First, let me talk about humanitarian aid. In 2019, the 
U.N. humanitarian appeal was funded at 87 percent, in 2020, it 
was funded at 50 percent, and so far this year, that figure is 
21 percent.
    There is a proposal on the table from the Swiss and the 
Swedes, who are hosting this year's conference, to do a follow-
on conference to try to get that number up.
    What do you propose are the necessary next steps to try to 
increase these commitments? Obviously, the need is greater 
today than it was in 2019 and our funding levels 
internationally have decreased.
    Mr. Lenderking. Absolutely right, Senator, to point that 
out, and, again, the--one of the two charges that the President 
asked me to undertake was to work to mitigate the humanitarian 
crisis in order to do that.
    We have talked here about the importance of opening up 
ports and other vital arteries, but the other piece is that 
there has to be funding, generous funding, from the donors.
    I have made it a priority on my trips around the region, 
and I have stopped in all of the Gulf countries or spoken to 
their leaders. I have visited one or two European countries.
    Central to all of those conversations I have is the 
importance of maintaining generous funding. I was very glad 
that Secretary Blinken appeared at the March 1st donor's 
conference to lend American support and highlight the 
importance of the humanitarian situation.
    But we have got to have the follow through. It is not only 
to get more funding but it is to ensure that the funds that 
have been pledged will be dispersed.
    So that is right up there at the top of my list of 
priorities, and I would like to see the Swiss and the Swedes go 
ahead with this conference.
    Senator Murphy. I am glad to hear it. I wanted to talk 
about the conditions necessary for a restart of ceasefire 
discussions. You stated in your opening remarks that the Saudis 
are ready to end this war responsibly and they want peace.
    But I would note just after they made their ceasefire 
office, they escalated airstrikes in Yemen, striking Sana'a as 
well as a nearby grain port, and they launched new military 
offensives of their own.
    No doubt the Houthis need to stop the offensive in Marib 
and we cannot have any serious discussions about a political 
settlement without that offensive.
    But are there also steps that the Saudis need to take 
beyond their end for support to the blockade in order to set 
the conditions for either a ceasefire or political discussions 
following on that ceasefire?
    Mr. Lenderking. Absolutely. I do think, Senator, that there 
is a receptivity from Saudi Arabia to working with us to 
achieve a responsible resolution of the conflict.
    But there is going to have to be a real spirit of 
compromise from Saudi Arabia. Some of the goals that they may 
have wished to achieve 5 years ago are not attainable.
    The Houthis have shown themselves to be a very strong 
military force, and there has been great loss of life, way too 
many civilian casualties, much too much destruction of civilian 
infrastructure, loss of life, internally displaced people.
    So what I would like to see from Saudi Arabia, and I think 
where we can come into play most directly, is to show that 
spirit of compromise and to meet terms that are attainable, 
that are realistic on a ceasefire, and to help work out 
mechanisms and adhere to them that would govern the terms of a 
ceasefire, and to help--continue doing what we are doing now to 
keep those vital economic and humanitarian arteries open.
    Senator Murphy. I am going to try to sneak two more 
questions in under the gun. One is on the current role of the 
UAE inside Yemen. We talk about the UAE's decision to withdraw 
militarily from the UAE.
    But my sense is it is not that simple. There are reports 
that the UAE is still involved in other mechanisms to support 
their partners on the ground inside Yemen.
    While they may not have their own forces participating, 
they still have lots of other ways to be able to try to 
leverage events in their direction.
    What is your sense of the UAE's involvement in the Yemen 
civil war today?
    Mr. Lenderking. I went to UAE last week to discuss that 
very issue, Senator, and foremost on my mind humanitarian 
concerns, as you noted, following through on pledges and 
continuing to be generous on the humanitarian side, but also to 
ensure that the UAE uses its influence in Yemen.
    And as you do rightly point out, they do have influence in 
Yemen, even if there are not Emiratis themselves present in the 
same numbers, to use that influence to ensure that groups that 
they have influence over are continuing to support the Yemeni 
Government and stay within the terms of a united Yemen.
    Senator Murphy. Are they still involved in providing any 
kind of military intelligence, logistical, or other support to 
armed actors on the ground in Yemen?
    Mr. Lenderking. Well, they are still a member, of course, 
of the Saudi-led coalition. So they are a strong member of that 
entity and they are also providing key counterterrorism support 
for us and for the Saudis to go after al-Qaeda and ISIL 
remnants, which still exist and thrive in the open spaces in 
Yemen.
    Senator Murphy. I will sneak in one last question and then 
ask Senator Young if he has got any final questions for you 
before turning to the next panel.
    You talked about the role of the Iranians and our lack of 
leverage on the Houthis. I understand you probably do not want 
to comment specifically on negotiations surrounding the 
reentering of a nuclear agreement.
    But suffice it to say it is helpful for us to create 
conditions such that Iran has less reason to create 
provocations in the region that compromise our security 
interests.
    I think you are right to suggest it is not easy to predict 
what the Iranians are going to do, whether we are inside or 
outside of the JCPOA.
    But there is lots of people that have suggested that so 
long as we are involved in a maximum pressure campaign on Iran, 
they are going to be looking for ways to try to disrupt our 
interests in the region, and Yemen is, clearly, a place where 
they can do that.
    I know you cannot predict Iranian behavior. But we are wise 
to try to arrange our priorities in the region to try to 
disincentivize the reasons why Iran might want to provoke us 
and create destabilizing situations.
    Mr. Lenderking. I, certainly, agree with that and, again, 
that is why I hope that the conversations in Vienna and the 
further interactions through the Europeans and others that we 
really can make some headway with Iran on the JCPOA.
    In the meantime, I do think we have to stay vigilant. We 
have to keep our naval forces through NAVCENT in Bahrain 
vigilant with what the Iranians are doing on the high seas, 
make sure they are not able to continue smuggling supplies into 
the Houthis.
    Senator Murphy. Thank you. Any final questions, Senator 
Young?
    Senator Young. Just a final sort of comment and I would 
like to enter something into the record. There have been press 
reports recently that the Houthis are indoctrinating children 
in Yemen with violent anti-Semitic and extremist material.
    According to this reporting, the curriculum is part of a 
broader Houthi strategy to instill their ideology across 
society. I think we have been hearing for years about such 
indoctrination occurring in madrasas, oftentimes, Sunni 
curriculum funded by some complicated partners, and oftentimes.
    But with that said, this would be Houthis who are--their 
creed is a form of Shi'a Islam. So anyway, Mr. Chairman, 
without objection, I would like to request that this article be 
added to the record.
    Senator Murphy. Without objection.
    [EDITOR'S NOTE.-The information referred to above can be 
found in the ``Additional Material Submitted for the Record'' 
section at the end of this hearing.]
    Senator Murphy. Thank you very much for your testimony.
    Mr. Lenderking. Thank you.
    Senator Murphy. Thank you.
    And with that, we will bring our second panel up. I am 
going to introduce you and then cut out to vote.
    And as they are being brought up, I am going to read their 
introduction so I do not miss the vote.
    Our second panel is, first, going to be Lise Grande, who is 
the President and CEO of the U.S. Institute for Peace. She has 
25 years of overseas experience leading, managing, and 
coordinating complex operations for the United Nations.
    Most of us know her through her prior role. Before joining 
USIP, she served as the head of U.N. Humanitarian and 
Development Operations in Yemen. She has been of great counsel 
to many of us as we have formed our views on the Yemen 
conflict.
    And we also are very pleased to be joined today by Amanda 
Catanzano. She is the senior director of International 
Programs, Policy, and Advocacy at the International Rescue 
Committee.
    She comes to the IRC from a career in the United States 
Government, most recently as director for strategic planning at 
the National Security Council.
    These are two witnesses who can give us an important 
perspective on the current state of the crisis in Yemen.
    So, Lise, we will turn it over, first, to you.

    STATEMENT OF LISE GRANDE, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, UNITED STATES INSTITUTE OF PEACE, WASHINGTON, DC

    Ms. Grande. Chairman Murphy, Ranking Member Young, and 
distinguished members of the subcommittee, it is an honor to 
have the opportunity to appear before you today.
    From March 2018 until December 2020, I served as the head 
of the U.N.'s humanitarian and development operations in Yemen.
    For nearly 3 years, I was the only senior international 
official present full time in the country and the only one to 
be present in Sana'a, the capital under the control of Ansar 
Allah, the Houthis.
    As we all know, the conflict in Yemen has lasted 6 years. 
It has resulted in the world's worst humanitarian crisis. It 
has resulted in a fragmentation of political power and turned 
Yemen into a failed state likely to collapse or, worse, to 
split into independent separately administered zones.
    With your permission, I would like to share more detail on 
the humanitarian crisis, which is so shocking in its magnitude 
it is hard even to describe.
    Senator Murphy, as you noted, and as did Senator Young, 20 
million Yemenis, two-thirds of the entire population, now 
require humanitarian aid. There is no other country in the 
world where a higher percentage of the population depends upon 
the generosity of the international community to survive.
    Twelve million are suffering from the most severe, 
agonizing, and life-threatening forms of need. They are either 
hungry, ill, forced to use unsafe water, homeless, jobless, 
unable to send their children to school, or all of these.
    Sixteen million Yemenis--that is more than half the entire 
country--do not have enough food. They wake up every morning 
and have no idea if or when they will eat that day.
    If something is not done now, humanitarian agencies are 
estimating that as many as 400,000 children are at risk of 
starving in just the next few months.
    As I said in my introductory comments, the humanitarian 
crisis in Yemen has a very specific cause. It is the war. 
Yemen's war is actually waged along two fronts.
    The military front includes the airstrikes, bombing, 
missiles, shelling, landmines, and fighting that have killed or 
injured nearly 20,000 civilians. The second front includes the 
measures that are directed at destroying the enemy's economy.
    These measures are used deliberately and to great effect by 
the Saudi-led coalition and include controls over the number 
and timing of all ships entering the port city of Hudaydah.
    They also include the decision to stop salary payments for 
public servants in northern Yemen, and they include 
restrictions on credit, imports, capital flows, and customs. At 
least 130,000 civilians are conservatively estimated to have 
died as a result of these and other indirect factors.
    The second front is a main driver of the humanitarian 
crisis, but it is not the only cause. Another aggregating 
factor is the behavior of Ansar Allah of the Houthis.
    In northern Yemen, Ansar Allah has now systematically 
seized almost all of the instruments of the state. They have 
also established new parallel structures staffed only by 
Houthis, which operate without public accountability and 
constitute a separate system of authority with wide-ranging 
powers.
    Ansar Allah has imposed hundreds of restrictions on the 
delivery of humanitarian aid, and Ansar Allah continues to 
threaten, bully, intimidate, and detain humanitarian staff.
    The steps that are being taken by President Biden in Yemen 
are welcome. All of us who have worked in the country know that 
only the U.S., with our partners, with our allies, has the 
leverage to end the war. There are many reasons why the U.S. 
should use this leverage.
    First, and this is absolutely undeniable, the war has given 
American adversaries opportunities to undermine our interests.
    Second, two of the world's most malign extremist forces, 
AQAP and ISIL, are present in Yemen and likely to spread 
further if the war continues.
    Third, as the most generous donor in the world and 
committed to value space diplomacy, none of us would want to 
see the U.S. turn its back on Yemen in its time of greatest 
need. Of the many things that need to be done right now, none 
is more urgent than relieving humanitarian suffering.
    Four steps will make all the difference.
    First, as several of us have said, we need to give 
generously to humanitarian agencies so they can do their work.
    Second, economic restrictions, part of that second front, 
need to be immediately lifted, allowing basic goods to enter 
and circulate freely in the country.
    Third, the Central Bank in Aden needs to be capitalized and 
public servants in the north need to be paid. None of these 
steps are impossible. In 2018, as the country was facing 
famine, all of these steps were taken and, as a result, famine 
was avoided.
    The fourth step is harder. Ansar Allah's police state is 
now so predatory and coercive, the U.S. and our allies have no 
choice but to condition our engagement with the movement in 
ways which incentivize, pressure, the Houthis to change their 
behavior.
    A final point. Yemen's political future can only be decided 
by Yemenis. The U.S. can help to create the conditions for a 
national reckoning and dialogue.
    But the work of deciding what kind of country Yemen will be 
is theirs, not ours. All political and civil society 
components, including the women's groups mentioned by Senator 
Shaheen, needs to be part of this discussion.
    If that does not happen, Yemen's future will be allowed to 
rest only in the hands of the elites who have destroyed the 
country and created so much misery. Surely, we can avoid this.
    Before the national reckoning, however, can even start, the 
parties and forces fighting this war must lay down their 
weapons. So far, the belligerents have not yet made this 
commitment. Instead, they continue to maneuver, stall, dodge, 
and fight.
    There are now 47 separate front lines in Yemen. A year ago, 
there were 33. This may be evidence of the parties trying to 
gain final advantage before sitting down to talk, or it may 
signal that the forces fighting Yemen's war are not yet 
persuaded they should stop.
    [The prepared statement of Ms. Grande follows:]

                   Prepared Statement of Lise Grande

    Chairman Murphy, Ranking Member Young, and distinguished members of 
the Subcommittee: It is an honor to have the opportunity to appear 
before you today--and especially to do so with Special Envoy Tim 
Lenderking and Amanda Catanzano, colleagues with whom I have been 
privileged to work, and for whom I have the deepest respect.
    Starting in March 2018 and through December 2020, I served as the 
United Nations Resident and Humanitarian Coordinator for Yemen. During 
that time, I was stationed in Sana'a, the capital city, which remains 
under the control of the Ansar Allah movement, known more widely as the 
``Houthis.'' For nearly 3 years, I was the only senior international 
official present in northern Yemen. With the permission of the 
Committee, I am pleased to offer brief reflections on Yemen's crisis 
and possible options for making the situation better.
                      how bad is the yemen crisis
    The conflict in Yemen has lasted 6 years, resulted in the world's 
worst humanitarian crisis, wrecked public institutions, created new 
forms of corruption, fragmented political power and turned Yemen into a 
failed state likely to collapse, or worse, split into independent, 
separately administered zones.
    The humanitarian crisis, in particular, is so shocking in its 
magnitude, it is hard even to describe.
    More than 20 million Yemenis are dependent on humanitarian 
assistance and protection to survive. Twelve million Yemenis are 
suffering from the most severe, acute, agonizing and life-threatening 
forms of need. They are either hungry, ill, homeless, thirsty, unable 
to send their children to school or without visible means of 
livelihood, or all of these.
    Sixteen million people, more than half the country, are hungry. 
They wake up every morning and have no idea when, or if they will eat 
that day. Two million Yemeni children and one million pregnant and 
lactating women are already ravaged by lack of nutrition or food, or 
both. If something is not done now, as many as 400,000 children could 
starve this year.
    During the 25 years I served with the United Nations I worked in 11 
acute major conflicts and emergencies. One of the hardest things you 
see are malnourished, starving children. The very moving documentary 
``Hunger Ward'' by Skye Fitzgerald follows two young girls as they 
suffer from and are treated for malnutrition. It is a heart-wrenching 
story. The film is up for an Oscar this year, and many of us hope it 
wins.
    Since 2015, when the war started, Yemen has experienced wave after 
wave of humanitarian catastrophe. In 2017, the worst cholera outbreak 
in modern history hit the country. The next year, in 2018, Yemen faced 
the one of largest famines the world had seen in decades.
    That famine was pushed back because humanitarian organizations, led 
by the World Food Programme, UNICEF, the World Health Organization, the 
U.N. High Commission for Refugees, the U.N. Population Fund, the Food 
and Agriculture Organization and more than 150 front-line partners, 
supported generously by donors, launched one of the largest, fastest 
scale-ups of assistance in generations.
    This year, because agencies and partners have not received the 
money they asked for, because access to the people hurting the most is 
difficult, and because of the destitution created by the war, famine is 
again stalking the country.
    And it is not just famine. Yemen is one of the 11 countries at 
highest risk of epidemics of infectious diseases. COVID has hit the 
country very hard. Millions of people are at even greater risk of 
illness and death because life-saving medicines and equipment are in 
short supply, half of all hospitals and clinics are not functioning, 
authorities have failed to mandate protective measures and because 
immunity levels are disastrously low after years of neglect, trauma and 
hardship.
                what is driving the humanitarian crisis
    The humanitarian crisis in Yemen has a very specific cause--the 
war.
    Yemen's war is being waged along two fronts. Militarily, 
belligerents are doing everything they can to degrade and disable the 
capabilities of their enemies. This includes airstrikes, bombing, 
missile and mortar strikes, artillery shelling, landmines and fighting. 
The impact of this warfare on civilians is enormous. Four million 
Yemenis have been displaced from their homes and nearly 20,000, 
probably more, have been killed. Hospitals, schools, water and 
electricity grids, food stores and irrigation canals have been hit and 
destroyed.
    The ``second front'' includes the coercive measures directed at 
destroying the enemy's economy. This strategy is used deliberatively 
and to great effect by the Saudi-led Coalition. Measures include 
controls over the number and timing of all ships entering the port city 
of Hodeida, the entrepot for close to 90 percent of all basic goods 
entering northern Yemen.
    Other measures, devastating in their impact on civilians, include 
the decision to stop payment of salaries for public servants in areas 
under the control of Ansar Allah, restrictions on lines of credit, 
quotas on the importation of basic goods including fuel and cooking 
gas, controls on capital flows through the Central Bank and on foreign 
exchange, liquidity shortages, import restrictions on industrial 
materials and differing customs regimes.
    The measures which together constitute the ``second front'' are now 
the main drivers of the humanitarian crisis. They have led to the 
immiseration of the population in areas under the control of Ansar 
Allah, ruined many economic and financial enterprises and starved 
public and national institutions of necessary resources. Although 
impossible to know for sure, at least 130,000 civilians are 
conservatively estimated to have died as a result of these.
    The ``second front'' may now be a main driver of the humanitarian 
crisis, but it is not the only cause.
    In northern Yemen, Ansar Allah has systematically taken over and 
transformed governance in the areas they administer. Oversight and 
control of state institutions are now fully in the hands of the 
movement. Parallel institutions, staffed exclusively by Houthis, have 
been established for key functions including policing and internal 
security.
    Virtually all public revenues are now channeled directly into 
institutions under the control of the movement, including the branch of 
the Central Bank in Sana'a. The movement has also introduced mechanisms 
to set and execute district and governorate budgets. Ansar Allah has 
usurped Zakat, a main pillar of social protection, making it a 
compulsory tax, and imposed draconian tariffs on agriculture and trade.
    The new structures and mechanisms created by Ansar Allah are not an 
improvement on the old system; they are predatory, operate without 
public accountability and constitute a separate system of authority 
with wide-ranging powers.
    Houthis are using these instruments to divert revenue from public 
goods and services to their fighters, sabotage private sector companies 
that do not cooperate with them, and manipulate currency and liquidity 
for their interests, not those of the general public.
    At the same time, Ansar Allah has introduced literally hundreds of 
restrictions on humanitarian aid, seeking to control the type, flow and 
targeting of all forms of assistance. Ansar Allah also continues to 
threaten, bully, intimidate and detain humanitarian staff.
    Restrictions on aid are also sometimes imposed by the Government of 
Yemen, local authorities and other political groups. All restrictions 
on the delivery of humanitarian assistance are violations of 
humanitarian principles and therefore unacceptable. The severity, 
intent and impact of those imposed by Ansar Allah, however, are of a 
different magnitude. Ansar Allah's arbitrary exercise of power and its 
reliance on repressive administrative mechanisms and regulations have 
combined to create one of the most non-permissive operating 
environments in the world for humanitarians.
                            what can be done
    The steps being taken by President Biden and the U.S. 
Administration to find ways of resolving Yemen's war and addressing 
humanitarian crisis are very welcome. Many of us who have worked in 
Yemen know that only the U.S. has the leverage to end the war. There 
are many reasons why the U.S. should use this.
    The war has given countries hostile to the U.S. and our allies 
opportunities to undermine our interests and expand their influence in 
the region. Two of the world's most malign extremist forces--AQAP and 
ISIL--are present in Yemen, and likely to spread further if the war 
continues.
    Yemen sits astride one of the world's most important maritime 
chokepoints; close to 10 percent of total seaborne-traded oil and 
refined products transit through the Bab el-Mandeb, a narrow straight 
linking the Indian Ocean with the Mediterranean through the Red Sea and 
Suez Canal. Disruption to the straight would likely have an immediate, 
negative impact on global energy supplies.
    There are also compelling moral reasons for being in Yemen and 
doing more. The U.S. is the most generous donor in the world and as 
concrete proof of its commitment to values-based diplomacy, none of us 
would want to see the U.S. turn its back on Yemen in its time of 
greatest need.
    Of the many things that need to be done in Yemen, none is more 
urgent than relieving humanitarian suffering.
    Four steps will make all the difference.
    First, we need to give generously to humanitarian agencies, and 
encourage other countries to as well, to ensure these partners have the 
nearly USD $4 billion they require this year.
    Second, the many restrictive measures imposed on the economy need 
to be immediately lifted, allowing the basic goods that people need to 
survive to enter and circulate freely in the country.
    Third, a consortium of international donors and financial 
institutions needs to reach agreement with authorities in both Aden and 
Sana'a to capitalize the Central Bank in Aden, which will improve 
liquidity in the south, and pay salaries for public servants in the 
north, which will dramatically increase the purchasing power of hard-
hit families.
    None of these steps are impossible; we took all of them in 2018. 
And because we did, we avoided famine.
    The fourth step is harder. In 2018, Ansar Allah had not yet 
constructed its police state. The instruments and structures of this 
state are now so predatory and coercive, the U.S. and our allies need 
to leverage our influence and condition our engagement with Ansar Allah 
in ways which incentivize it to change its behavior.
    There are many very talented people and diplomats who are 
advocating and working to end Yemen's war and secure a new political 
peaceful future. Their efforts are determined, and heroic.
    Yemen's political future, however, can only be decided by Yemenis. 
The U.S. and our allies can help create the conditions for a national 
reckoning, but the work of deciding what kind of country Yemen will be 
is theirs, not ours.
    One of our most important roles is to insist that the broadest 
possible configuration of the Yemeni society is included in the 
national reckoning.
    Decisions about the future of Yemen cannot just be in the hands of 
the elites who have brought destruction and misery to the country and 
who are likely to strike deals that reflect their own narrow interests. 
All the many forces that control territory in the country and aspire to 
represent the will of the people need to be included. So does the 
private sector, which will have to rebuild the economy, women's and 
youth groups who will be key to the country's recovery, civil servants 
who will have to revitalize public systems and the intelligentsia, 
tribal leaders, community leaders and religious leaders who will play 
leading roles.
    This reckoning will not be--cannot be--the same as the 2013-2014 
national dialogue. Too much has changed.
    Political power has shifted dramatically. Ansar Allah now fully 
controls the instruments of the state in northern Yemen and has 
constructed its own parallel state-within-a-state. In the south, new 
constellations and political forces challenging the integrity of 
Yemen's unification have emerged. Tribal leaders have played decisive 
roles during the conflict, widening their influence and asserting their 
role in adjudication of social and property issues. War profiteers, 
many linked to the warring parties, have established powerful patronage 
networks to protect their gains.
    Civil society is overwhelmed and public institutions are on life-
support. The companies and trading houses which have managed to survive 
in the private sector are struggling to keep their doors open. Civil 
society groups have stepped into the void created by collapsing state 
institutions, providing social protection, insisting on accountability 
and caring for families and communities facing famine and disease. 
Public institutions have been hollowed out and many are no longer able 
to provide basic services.
    Before the national reckoning can even start, however--and before 
any of the political, economic, social and security questions that need 
to be answered can be answered, the parties and forces fighting this 
war must lay down their weapons.
    So far, the belligerents have not yet made this commitment. 
Instead, they continue to maneuver, stall, dodge and fight. There are 
now 47 separate frontlines in Yemen. A year ago, there were 33. This 
may be evidence of the parties trying to gain final advantage before 
sitting down to talk or it may signal that the forces fighting Yemen's 
war are not yet persuaded they should stop.

    Senator Murphy. Thank you, Ms. Grande, for that very 
compelling testimony.
    Next, I would like to call on Ms. Catanzano.

 STATEMENT OF AMANDA CATANZANO, SENIOR DIRECTOR, INTERNATIONAL 
PROGRAMS, POLICY AND ADVOCACY, INTERNATIONAL RESCUE COMMITTEE, 
                         WASHINGTON, DC

    Ms. Catanzano. Chairman Murphy, Ranking Member Young, 
members of the subcommittee, thank you for convening us today 
and for prioritizing Yemen for this subcommittee's first 
hearing.
    I represent the International Rescue Committee, a 
humanitarian organization with over 400 staff, mainly Yemenis, 
working across the north and south of the country.
    Last year, the IRC provided health services for over 
600,000 Yemenis and treated nearly 30,000 children under five 
for malnutrition, thanks in large part to the generous U.S. 
funding we receive.
    We also provide education, clean water, emergency cash, and 
job training. While the humanitarian crisis in Yemen is 
protracted, it is by no means static. The situation continues 
to unravel as Yemenis confront new shocks with fewer resources 
and less resilience.
    After a relative lull, conflict is spiking. Yemenis are 
enduring the legacy of a cruelly-conducted war that has made 
recovery nearly impossible. Every day for over 6 years Yemenis 
have endured 10 airstrikes on average.
    And at the same time, the conflict's daily horrors 
continue. Last year, as Ms. Grande mentioned, frontlines 
exploded from 33 to 49, making safety increasingly hard to 
find.
    Today, Yemenis are more likely to be killed in their homes 
than anywhere else. And Yemen's economy is collapsing as 
warring parties manipulate it as a tool of warfare, choking the 
import of critical commodities, especially fuel, and sending 
prices skyrocketing.
    Three in five Yemenis surveyed by the IRC could not afford 
basic items like food, and many families are resorting to child 
labor and child marriage to ease their household expenses.
    The humanitarian response is constrained. Bureaucratic 
challenges, not insecurity due to conflict, account for over 90 
percent of access incidents. And despite some improvements, 
issues like delays in program approvals still slow the delivery 
of lifesaving aid.
    But the biggest constraint to our work is underfunding, 
which has forced humanitarians to scale back even as the needs 
spiral. The result? The world's worst humanitarian crisis is on 
track for its worst year yet.
    Famine alarms are ringing again as over half of Yemen's 
population is going hungry, and a record 50 percent of all 
children under five are acutely malnourished and 400,000 at 
risk of dying without treatment.
    To call this unraveling a tragedy would miss the point. 
Yemen's cycle of crisis is not an accident. It is the 
predictable outcome of a war that has put civilians in the 
crosshairs.
    A hunger crisis is inevitable when a thousand markets, 
farms, and food storage facilities are bombed and import 
restrictions price families out of basic goods. Malnutrition 
and disease outbreaks are what happens when health facilities 
are attacked or denied critical supplies, and child labor and 
child marriage are among the only options left when the 
international community cuts funding in half and 5 million 
fewer Yemenis receive aid each month.
    We are grateful for the sustained congressional pressure 
that has helped to drive U.S. policy away from a failed war 
strategy, and we applaud the Biden administration's initial 
steps to pivot toward diplomacy.
    The severity of the humanitarian situation requires the 
U.S. build on this momentum quickly and we urge the U.S. to do 
both the urgent work to save lives and the important work to 
end the conflict driving the need without making one contingent 
on the other.
    Humanitarian steps are not political bargaining chips. 
Sequencing or conditioning them shows callous disregard for 
Yemeni lives. To this end, the U.S. should take the following 
five steps.
    First, rally more funding to avert the worst outcomes like 
famine. Humanitarians are operating with only a quarter of the 
funds required. The U.S. should support a follow-on donor 
conference this year to fill the dangerously low coffers.
    Second, push back against constraints on humanitarian 
operations across Yemen. NGOs like the IRC need high-level 
engagement between the U.N. and donors with all authorities to 
remove persistent bureaucratic barriers that keep aid from 
Yemenis who so desperately need it.
    Third, ensure the unimpeded flow of commercial and 
humanitarian imports. Given the devastating humanitarian toll 
of the current fuel shortages, the U.S. should prioritize 
pushing the Government of Yemen to allow fuel ships to berth at 
Hudaydah port. The U.S. should also push for all air and 
seaports to be reopened to humanitarian and commercial traffic.
    Fourth, secure an immediate nationwide ceasefire. A halt to 
the fighting would protect civilians and the infrastructure 
they depend on, and it would facilitate delivery of much-needed 
aid and help create space for a meaningful political process.
    Fifth, drive forward a new diplomatic framework. A 
sustained political settlement is the only way out of Yemen's 
nightmare.
    Building on last week's Security Council press statement, 
the U.S. should support a new council resolution that is more 
inclusive and addresses the thorniest issues, including the 
economic disputes increasingly at the heart of the conflict and 
the humanitarian crisis.
    I offer my sincere thanks to the subcommittee for this 
opportunity to share the challenges facing IRC's Yemeni staff 
and clients.
    I look forward to your questions.
    [The prepared statement of Ms. Catanzano follows:]

                 Prepared Statement of Amanda Catanzano

    Chairman Murphy, Ranking Member Young, and Members of the 
Subcommittee, thank you for convening this hearing on Yemen's 
humanitarian crisis. Your focus on Yemen as the first hearing of this 
subcommittee is not just admirable, it's critical. The crisis--already 
regarded as the world's worst--threatens to spiral out of control. 
Yemenis are facing unprecedented challenges in 2021. Conflict is 
raging; the economy is imploding; starvation is looming. Against this 
grim backdrop, the humanitarian response is at risk of collapse as 
warring parties impede the flow of aid and donors turn away from the 
record needs.
    I speak on behalf of the International Rescue Committee (IRC), a 
humanitarian organization with over 400 staff, mainly Yemenis, on the 
ground in the country. We provide lifesaving aid and services to 
Yemenis across eight governorates--in areas under the de facto control 
of Ansar Allah in the North and of the Internationally Recognized 
Government (IRG) in the South. Generous U.S. Government funding has 
helped support our work in Yemen since 2012.
    The IRC is one of the largest non-governmental health actors in 
Yemen, where only half of health facilities are functional and even 
fewer provide maternal or child healthcare services. Last year, the IRC 
supported 84 health clinics--providing health services for over 600,000 
Yemenis. We helped over 14,000 women deliver their babies safely, 
treated nearly 30,000 children under 5 for malnutrition, and helped 
thousands of pregnant and lactating mothers learn healthy feeding 
practices to prevent malnutrition. We also support mobile health teams 
to reach Yemenis in remote areas and displacement camps. Beyond health 
care, we provide education, clean water, emergency cash, job training, 
and support for women and children who have been the victims of 
violence.
    We hope today's discussion will focus not just on Yemen's cycle of 
crisis, but on the concrete humanitarian, economic and political 
actions necessary to break it. After 6 years, Yemenis are desperate to 
have the U.S. and the international community on their side, rather 
than as actors in a conflict that could take a half a million Yemeni 
lives or more.
                  2021 could be yemen's worst year yet
    When the IRC began working in Yemen in 2012, the country already 
faced steep humanitarian and development challenges. It was the poorest 
Arab country, with half of its population living in poverty. It ranked 
153rd on the Human Development Index and 147th in life expectancy.\1\ 
But the levels of misery have grown exponentially since the conflict 
escalated in 2015. Since 2017, the U.N. has consistently labeled Yemen 
the world's worst humanitarian crisis. The bottom continues to drop out 
because the relentlessness of this conflict and the cruelty with which 
it is conducted have eroded Yemenis' resilience and coping strategies. 
As such, Yemenis are worse off in 2021 by almost all measures than at 
any point in the conflict.
    Today, Yemen has the world's largest population in need of aid at 
over 20 million. But the conflict has not produced a major refugee 
crisis. The closures of air and sea ports and land border crossings 
have prevented Yemenis from finding safety abroad. But the war has 
displaced four million Yemenis internally--the fourth highest number of 
internally displaced people (IDPs) globally.\2\ Yemenis are trapped in 
a country where their most basic needs cannot be met, where warring 
parties are destroying lives at every turn--from the missiles and 
artillery shells that decimate the infrastructure civilians depend on 
to purposeful currency manipulation that prices families out of basic 
goods to constraints on the imports of food, fuel and medicines that 
jeopardize the humanitarian response.
    Today half of all Yemenis cannot access clean water, two-thirds 
lack access to health care, and half of Yemenis are going hungry.\3\ In 
fact, more Yemenis have died and continue to suffer from these indirect 
impacts of war than from the violence itself. UNDP estimates that if 
the war lasts until 2022 there will be nearly half a million deaths. 
Two-thirds of these deaths would be due to the indirect impacts of the 
conflict.\4\
    As the conflict enters its 7th year the situation continues to 
unravel; famine alarms are ringing louder than ever as 16 million 
Yemenis, over 50% of the population, are already going hungry. 50,000 
may be experiencing famine-like conditions with 5 million more on the 
brink.\5\ Half of all children under the age of 5 are acutely 
malnourished--the highest levels ever recorded--and 400,000 children 
are at risk of dying without treatment.\6\
    COVID-19 has been devastating in Yemen--both in terms of its direct 
health impacts but arguably more from its impacts on the economy. And a 
second wave is descending on the country with case counts jumping by 
nearly 400% in March and a frighteningly high case fatality rate that 
indicates the real case numbers are likely much higher.\7\ But the 
pandemic that is at the forefront of Americans' minds barely registers 
for our clients given the severity of all the other crises facing them. 
They repeatedly tell us they are more concerned about hunger than 
COVID-19.
    My colleagues report that families that were barely making it 
through the crisis are now no longer able to do so. After 6 years of 
conflict and economic crisis, many Yemenis have exhausted their savings 
and sold off all valuable assets like property or livestock. Families 
are making decisions no family should have to; some are pulling their 
children out of school and sending them to work or to beg in the 
streets or marrying off daughters to drive down household expenses. The 
rate of forced and early marriage of girls has more than doubled since 
the war started with as many as two-thirds of Yemeni girls married 
while they are still children.\8\
  pushed to brink by conflict, economic collapse, and constraints on 
                                 access
    We have no right to be shocked by these numbers or the warning of 
famine yet again in Yemen. To describe this unraveling as a tragedy 
would miss the point. Yemen's cycle of crisis is not an accident. It is 
the predictable outcome of political failure and a war that has put 
civilians--and the systems that sustain them--in the crosshairs. A 
hunger crisis is what happens when nearly 1,000 markets, farms and food 
storage locations are bombed.\9\ When health facilities are unable to 
function and treat illnesses like malnutrition--because they have been 
bombed, or lack fuel for power, or basic supplies to care for patients. 
When the international community cuts aid in half and 5 million fewer 
Yemenis are able to access live-saving aid each month.\10\
    Yemen has topped IRC's annual Watchlist for 3 years running--not 
just as the world's worst crisis but as the one at greatest risk of 
further deterioration. Because while the crisis is protracted it is by 
no means static. It continues to plumb new depths due to intensifying 
violence, economic warfare, and continued constraints on humanitarian 
access--all conducted without regard for civilian welfare and carried 
out with impunity. Yemenis are forced to confront each new shock with 
fewer resources and resilience.
First, conflict is escalating--forcing Yemenis to contend not just with 
        the war's destructive legacy but its continued daily horrors.
    Yemenis are suffering from the effects of 6 years of a cruelly 
conducted war that has eroded resilience and coping strategies and made 
recovery nearly impossible. Since 2015, there have been ten air raids 
every day, on average. In attacks where the target could be identified, 
nearly half hit civilian infrastructure. Over the course of the war, an 
airstrike has hit a school roughly every 6 days; a water or electricity 
site every 2 weeks. Markets have been attacked every 10 days; farms 
every 3 days despite a hunger crisis.\11\
    Over 130,000 people have been killed as a direct result of the 
violence.\12\ Last year, an airstrike hit a residential site on average 
every 3 days \13\--making the home the most likely place where a Yemeni 
civilian is injured or killed.\14\ Women and children are at even 
higher risk when conflict reaches residential areas. As a result, one 
in four deaths is a child.\15\
    These are shocking indictments of the warring parties, who have 
spurned international humanitarian law with impunity. A 2020 report 
from the Group of Eminent Experts on Yemen found that war crimes have 
likely been committed by all sides to the conflict and yet there have 
been no meaningful attempts at accountability.\16\
    Yemenis live in fear of the next escalation. After a relative lull 
since late 2018, conflict activity is spiking. The number of front 
lines exploded from 33 to 49 in 2020.\17\ Airstrikes by the Saudi-led 
Coalition rose by 82% in 2020 compared to 2019--the first increase in 3 
years.\18\ Over the past year, fighting has escalated in Marib 
governorate, where millions of Yemenis had fled in search of safety. 
Marib's population today is estimated to be up to ten times higher than 
the pre-war population.\19\ This safe haven is now in the crosshairs. 
For the past year, Marib has been bombed and shelled more than any 
other Yemeni governorate. In the first quarter of 2021, Marib saw the 
war's second-highest deaths in a single governorate--only surpassed by 
Hodeidah in late 2018.\20\ Conflict also increased in both Hodeidah and 
Taiz while Saudi-led Coalition airstrikes nationwide nearly doubled 
last month.\21\
    But this is more than a two-sided fight between Houthi and anti-
Houthi forces. This conflict is also a fragmented set of local power 
struggles. Across the South, IRC's ability to deliver life-saving 
programming has been disrupted by rounds of conflict between fighters 
loyal to the IRG and those aligned with the Southern Transitional 
Council (STC). The two sides signed a power-sharing deal known as the 
Riyadh Agreement in 2019 but implementation largely stalled. 
Nonetheless, tensions persist and southern Yemen gets more fragmented 
with additional armed groups emerging trying to seize political power 
and economic resources in some parts of southern Yemen. Our staff in 
Aden report that they simply do not know who is responsible for 
governance and security of people in southern Yemen.
    The uncertainty and insecurity creates conditions that are ripe for 
other groups to exploit. In the southern governorate of Abyan, there 
have been dozens of carjackings in recent weeks, including of NGO 
vehicles. At least some of those thefts are carried out by, or on 
behalf of, Al-Qaeda in the Arabian Peninsula. IRC made the difficult 
decision to halt programs in Abyan for the past 2 months despite rising 
need. The STC's success in pushing its way to the negotiating table in 
Riyadh through the use of force also risks teaching other groups that 
the best way to see their interests represented in future political 
talks is by further destabilizing the south.
Second, the economy is collapsing--both as a result of the violence and 
        economic warfare carried out without regard for civilians.
    The Yemeni economy is not just a victim of this brutal conflict but 
increasingly a driver of it, as parties compete for control of key 
resources and institutions at the expense of ordinary Yemenis. For 
example, the Central Bank of Yemen is divided into rival branches in 
Sanaa and Aden in 2016. The causes of Yemen's economic crisis are 
complex and interconnected, but the effect on the humanitarian 
catastrophe in Yemen is clear. Between them, the de facto authorities 
in Sanaa and the IRG in Aden have failed to pay salaries for many civil 
servants, depriving millions of Yemenis of their incomes with a ripple 
effect on the collapse of basic public services. As a result, 
remittances became a lifeline for many of the 80 percent of Yemenis 
living in poverty, worth an estimated fifth of Yemen's GDP in 2019.\22\ 
Last year, the pandemic led to a sharp 80 percent drop in remittances, 
as Yemenis living outside the country have lost their jobs and become 
unable to send money back to their families.\23\
    Meanwhile, a combination of mismanagement and economic posturing 
has left the split Central Bank unable to stabilize the Yemeni 
currency; the Rial's value has fallen by 75% in the South and by two-
thirds in the North since the war began.\24\ The Central Bank's 
inability to fund essential imports has had an equally devastating 
impact in the import-dependent country. Prices have soared and 
purchasing power plummeted--the price of rice has quadrupled since the 
start of the war.\25\ Three in five Yemenis surveyed by the IRC could 
not afford basic items, leading two-thirds of them to reduce food 
consumption. Moreover, COVID-19's disruptions to the global supply 
chains widened cracks in the country's already fragile economy.
    Asrar, one of IRC's clients, has told IRC staff she cannot afford 
food for herself and her seven children. ``We can't buy anything these 
days with the price increases.'' She added, ``If we buy flour, then we 
won't be able to buy sugar and oil. We can't afford to buy 
everything.'' Another client, Mohammed, says rising prices contributed 
to his family reducing food consumption and his 5-year-old daughter 
becoming malnourished. ``We were not even able to visit the hospital or 
buy medicine because it is so expensive.''
    Yet commercial imports to northern Yemen through Hodeidah and 
Saleef ports remain slowed and disrupted by inspection regimes and 
administrative delays, even as these ports are located near an 
estimated 70 percent of people in need of humanitarian aid.\26\ While 
food imports have arrived in steady quantities in recent months, fuel 
has been in dangerously short supply. In recent years, disputes over 
import revenues have added additional obstacles to the already 
duplicative import inspection regime, in which both U.N. and Saudi 
clearance are required.
    A new phase of economic warfare has occurred since June, when, 
according to the U.N. Panel of Experts, Ansar Allah withdrew more than 
$1.9 billion in customs revenues from the Hodeidah Central Bank in 
violation of the Stockholm Agreement. In response, the IRG's economic 
committee, responsible for issuing permits for fuel tankers to berth 
and discharge vital petroleum derivatives, has aimed to slow or stop 
the import of fuel to northern Yemen. In the first quarter of 2021, 
fuel imports through these two ports only met seven percent of the 
country's national requirements.\27\ After more than 2 months without a 
single fuel ship docking in the North, four ships were finally allowed 
to dock last month. Three more were reportedly cleared last week.\28\ 
But hundreds of thousands of metric tons of desperately needed fuel 
still sit on ships just offshore of Yemen's port of Hodeidah--held 
hostage as the warring parties bicker.
    Fuel shortages undermine health services as hospitals cannot keep 
their generators running, disrupt clean water supplies because pumps 
and water trucks cannot run, and increase the overall cost of 
humanitarian assistance as fuel can only be procured through more 
expensive informal markets. NGO staff in Ansar Allah-controlled areas 
are reporting a 50 percent price increase in water trucking since 
December.
Third, and finally, humanitarian aid and access are treated as 
        bargaining chips.
    The destruction of health, water, and other infrastructure combined 
with the unraveling of public services and skyrocketing prices mean 
that two in three Yemenis are in need of life-saving aid. Yet all 
parties to the conflict have complicated and slowed our efforts to 
deliver principled, needs-based assistance to Yemenis.
    While there were some improvements, humanitarian actors like the 
IRC continue to face a byzantine set of bureaucratic constraints and 
administrative delays, in both the North and the South. These types of 
constraints accounted for over 90 percent of all humanitarian access 
incidents last year. As a result, around 9 million Yemenis were 
affected by delayed or interrupted aid at some point last year. Right 
now, as many as 3.5 million people are currently being affected by 
delayed approval of projects.\29\
    Unclear and arbitrary processes and capacity constraints at the few 
accessible air and sea ports slow the import and offloading of 
critical--often perishable--humanitarian supplies like food and 
medicines. The main point of entry for humanitarian cargo is Aden port, 
which requires NGOs to manage lengthy customs clearance processes. 
Meanwhile, one of the only two ways to import humanitarian cargo to 
northern Yemen is by driving a 300-mile road from Aden to Sanaa through 
50 checkpoints and informal customs set up by Ansar Allah after 
obtaining another permit from Ansar Allah in addition to IRG. Sanaa 
airport has been closed to commercial traffic for nearly 5 years and 
only humanitarian flights are operating, including humanitarian cargo, 
though again, only after lengthy and complicated import approvals. The 
airport's closure also means that thousands of Yemenis are unable to 
seek healthcare outside of the country each year--likely resulting in 
the premature and unnecessary deaths of tens of thousands since 2016.
    It can also take months to obtain visas for aid workers, line 
ministry approvals needed to launch humanitarian programs, and the 
permits required to travel to program locations and conduct 
assessments. Even when supplies clear and staff receive approvals, 
challenges remain.
          a window of opportunity to break the cycle of crisis
    For too long, the needs and protection of Yemeni civilians rated 
low--if at all--on the priority lists of not just the warring parties, 
but their international backers--including the U.S. Yemen policy was 
about counter-terrorism, Yemen policy was about Gulf security. It was 
rarely, if ever, about Yemenis. The U.S. approved over $64 billion in 
military sales to Saudi Arabia between 2015 and 2020 \30\--20 times the 
amount of humanitarian aid the U.S. provided to Yemen during that time 
frame.\31\
    As such, we are grateful for the sustained Congressional pressure 
that has helped drive U.S. policy away from a failed war strategy. On 
the humanitarian front, it is still possible to change the trajectory 
of the crisis, to prevent the worst outcomes like famine. Recent policy 
decisions by the Biden administration--like reversing the terrorist 
designation of Ansar Allah and the end of the U.S. suspension of aid to 
northern Yemen--have helped create this window of opportunity. These 
were meaningful first steps to enable a robust humanitarian response 
for all those in need--but must be followed by funding and humanitarian 
diplomacy to enable aid organizations to scale up.
    Our humanity compels us to stave off famine and meet immediate 
needs. But as the conflict enters its 7th year, our logic must compel 
us to lift our line of sight above the symptoms of this crisis and 
shift towards addressing the crisis at the source.
    We welcome the Biden administration's pivot toward invigorated 
diplomacy--including ending support for offensive operations, pausing 
arm sales, and appointing a new special envoy. These are vital first 
steps toward putting Yemen and Yemenis at the center of U.S. policy and 
help position the U.S. as a more neutral actor and convenor of a 
multilateral process to end the war. But the cyclical humanitarian 
nightmare demands more new and bold political thinking and action.
    Yemenis cannot wait for a political solution to receive relief. The 
urgency of humanitarian need--including looming famine--demands that 
the international community move forward on two tracks--delinking the 
immediate efforts needed to ease suffering from the wider political 
process. Now is the time to do both the urgent work to save lives and 
the important work to end the cruel conflict driving the need--without 
making one contingent on the other.
    First, rally more humanitarian funding to fill the dangerous 
funding gap. Right now, the U.N.'s appeal for the largest crisis in the 
world is only 25 percent funded.\32\ Recent history has proved that the 
right investments, delivered to the right agencies on the front line 
can make a difference in Yemen. In 2018, when famine conditions were 
declared, generous and timely contributions from donors enabled the 
U.N. and NGOs to significantly scale up the humanitarian response. 
Donors funded nearly 90 percent of the humanitarian response plan and 
humanitarians nearly doubled the number of Yemenis reached that year 
\33\ and cured a higher percentage of children with severe acute 
malnutrition than any comparable response.\34\ These steps saved lives.
    Warding off famine in 2021 demands funding at least equal to that 
delivered in 2018 and 2019. The U.S. should support the Swiss and 
Swedish (this year's donor conference co-hosts) proposal for a follow-
on conference in 3-months' time. Some donors have expressed frustration 
at the lack of political progress, but punishing ordinary Yemenis for 
the intransigence of the warring parties is as foolish as it is cruel. 
The Administration's move to lift the suspension in the North of the 
country gives them more moral authority to push other donors--and we 
encourage the U.S. to leverage it. But pledges on paper will not save 
lives; only half of this year's pledges have been paid. The U.S. should 
rapidly disperse funds to frontline humanitarians who are on the ground 
and ready to scale up operations and pressure other donors to do the 
same.
    Second, protect and expand humanitarian access across Yemen. 
Humanitarian aid must be able to reach those who need it. NGOs need 
coordinated, sustained, high-level engagement between U.N. and donor 
countries with Ansar Allah in the North and with the IRG and STC in the 
South to remove persistent bureaucratic and administrative barriers. 
The scale and reach of the humanitarian response would grow 
significantly if the U.S. and its partners pushed all Yemeni 
authorities to streamline the processes and timelines for moving 
humanitarian goods and staff into and around the country and for 
securing project permissions and travel permits. Working with the U.N. 
and in consultation with humanitarian actors--to ensure consistent, 
principled messaging--the U.S. should galvanize donors to establish 
senior-level humanitarian dialogues with officials in the North and the 
South, building on previously agreed benchmarks and measures. The need 
to distribute COVID-19 vaccines brings new urgency to this effort.
    Third, facilitate the flow of commercial and humanitarian imports 
into and throughout the import-dependent country. Even with more 
humanitarian funding and access, the magnitude of the needs will 
outweigh the humanitarian response until food, fuel and other staples 
are accessible and affordable for more Yemenis. The U.S. should push 
for all air and sea ports to be reopened to humanitarian and commercial 
traffic; and for inspection and clearance processes for vital imports 
to be streamlined or eliminated. Moreover, the opening of Sanaa airport 
will finally allow thousands of chronically ill Yemenis to access 
lifesaving care abroad. The IRG should immediately allow fuel ships to 
berth at Hodeidah. At the same time, civil servant salary payments 
should restart without delay. Getting these payments into Yemeni 
pockets would have the dual benefit of generating income for millions 
and rebuilding capacity of state service delivery. These steps are not 
political bargaining chips; they are urgent humanitarian matters. Every 
day that they are delayed costs Yemeni lives. Sequencing or 
conditioning these steps shows callous disregard for Yemeni lives and 
wellbeing.
    Fourth, push for an immediate nationwide ceasefire. A ceasefire is 
urgently needed to protect civilians and enable aid to flow, including 
food and emergency cash distributions to ward off famine and the 
distribution of COVID-19 vaccinations. The U.S. should use all 
diplomatic levers to secure a ceasefire, including pressing other 
states with influence over the warring parties to similarly halt arms 
sales.
    Fifth, press for a new framework for a political process. 
Ceasefires are fragile and temporary at best. This conflict is ravaging 
civilians purposefully and a sustained political settlement is the only 
pathway out of the humanitarian crisis. But diplomacy has been stuck in 
the past--built on a framework that does not reflect current realities 
on the ground. The warring parties remain caught in a cycle of arguing 
over sequencing and who must do what first while trying to change the 
facts on the ground militarily to better their negotiating position. 
While the Security Council's statement last week was welcome, Yemenis 
need and deserve a concrete roadmap to turn these ideas into action and 
ensure the proposals on the table don't languish at the expense of 
ordinary Yemenis. The U.S.--together with the UK as the U.N. Security 
Council ``penholder'' on the file--should move the Security Council 
past politics to concentrate on the people caught in the crisis. 
Council action, including a new resolution that is centered on the 
needs of Yemenis, is more politically inclusive and representative of 
Yemeni society, and sets out the responsibilities of all the parties, 
would offer the badly needed break from the past.
    Council action should address the thorniest issues including the 
economic disputes--such as revenue sharing and Central Bank 
arrangements--that are increasingly driving the conflict and 
humanitarian misery. These issues are largely left out of the existing 
Security Council Resolution (or worse, exploited by parties) and what 
little is codified in the Stockholm Agreement has been ignored and a 
source of the stalemate.
    As we do in challenging environments all over the world, 
humanitarians like my IRC colleagues have stayed and delivered in Yemen 
in the midst of a complex and deteriorating crisis. But there is no 
humanitarian solution for Yemen or Yemenis. Humanitarians cannot 
replace a functioning economy or a state capable of delivering basic 
services; we cannot keep pace with the destruction this brutal conflict 
leaves in its wake. Yemenis will continue to suffer and die needlessly 
unless and until the violence is halted, the economy stabilized, and a 
meaningful political process is launched.
    The U.S. has the opportunity to build on its unilateral efforts to 
push forward multilateral steps to finally address the underlying 
drivers of the crisis. We owe it to the Yemeni people to pursue it 
vigorously. After all, the darkest aspect of modern warfare is the 
absence of diplomacy.
    I offer my sincere thanks to the Subcommittee for its commitment to 
Yemen and Yemenis and for giving me the opportunity to share the 
challenges facing my IRC colleagues and our clients. I look forward to 
answering your questions.

----------------
Notes

    \1\ Jonathan D. Moyer, David K. Bohl, Taylor Hanna, Brendan R. 
Mapes, Mickey Rafa, ``Assessing the impact of war on development in 
Yemen,'' UNDP and Frederick S. Pardee Center for International Futures, 
April 2019, https://yemen.un.org/sites/default/files/2019-09/
Assessing%20the%20Impact%20of%20War%20on%20Development%20in%20Yemen.pdf.

    \2\ ``Yemen Humanitarian Needs Overview 2021,'' UN OCHA, February 
2021, p. 14, https://reliefweb.int/sites/reliefweb.int/files/resources/
Yemen_HNO_2021_Final.pdf.
    \3\ ``Yemen Humanitarian Needs Overview 2021,'' p. 8.
    \4\ ``Assessing the impact of war on development in Yemen.''
    \5\ ``Yemen: Integrated Food Insecurity Phase Classification 
Snapshot October 2020-June 2021,'' IPC Info, December 3, 2020, http://
www.ipcinfo.org/fileadmin/user_upload/ipcinfo/docs/
IPC_Yemen_Acute_Food_Insecurity_2020Oct2021June_Snapshot.pdf.
    \6\ ``Yemen: `Toxic mix' imperils lives of under-fives with acute 
malnutrition,'' UN News, February 12, 2021, https://news.un.org/en/
story/2021/02/1084572.
    \7\ WHO Coronavirus (COVID-19) Dashboard, World Health 
Organization, accessed April 17, 2021, https://covid19.who.int/region/
emro/country/ye.
    \8\ ``From Yemen, A cry for help,'' UNFPA, December 1, 2020, 
https://reliefweb.int/report/yemen/yemen-cry-help.
    \9\ IRC analysis from ``Six Years of the Saudi-led Air War in 
Yemen,''
Yemen Data Project, 25 March 2021, https://us16.campaign-archive.com/
?u=1912a1b11cab332fa977d3a6a&id=dfa2bd5a04.
    \10\ ``Under Secretary-General for Humanitarian Affairs and 
Emergency Relief Coordinator, Mark Lowcock, Briefing to the Security 
Council on humanitarian situation in Yemen,'' UN OCHA, April 15, 2021, 
https://reliefweb.int/report/yemen/under-secretary-general-
humanitarian-affairs-and-emergency-relief-coordinator-mark-38.
    \11\ ``Six Years of the Saudi-led Air War in Yemen,'' Yemen Data 
Project.
    \12\ IRC analysis of data from the Armed Conflict Location & Event 
Data Project (ACLED) dashboard.
    \13\ IRC analysis of data from the ``Yemen Air War 2020 Data 
Overview'' by the Yemen Data Project. See https://us16.campaign-
archive.com/?u=1912a1b11cab332fa977d3a6a&id=ecf5725e8d.
    \14\ ``2020 Annual Report,'' Civilian Impact Monitoring Project, p. 
8, https://civilianimpactmonitoring.org/onewebmedia/
2020%20CIMP%20Annual%20Report.pdf.
    \15\ Ibid, p. 2.
    \16\ ``Situation of human rights in Yemen, including violations and 
abuses since September 2014,'' Group of Eminent International and 
Regional Experts on Yemen, September 28, 2020, https://www.ohchr.org/
EN/HRBodies/HRC/Pages/NewsDetail.aspx?NewsID=26315&LangID=E.
    \17\ ``Humanitarian Needs Overview Yemen 2021,'' p. 6.
    \18\ ``Yemen Data Project Air Raids Summary January 2021,'' Yemen 
Data Project, January 2021, https://us16.campaign-archive.com/
?u=1912a1b11cab332fa977d3a6a&id=ecf5725e8d.
    \19\ Peter Salisbury, ``Behind the Front Lines in Yemen's Marib,'' 
International Crisis Group, 17 April 2020, https://www.crisisgroup.org/
middle-east-north-africa/gulf-and-arabian-peninsula/yemen/behind-front-
lines-yemens-marib.
    \20\ IRC analysis of data from the Armed Conflict Location & Event 
Data Project (ACLED) dashboard.
    \21\ ``Yemen Data Project Air Raids Summary April 2021,'' Yemen 
Data Project, April 2021, https://us16.campaign-archive.com/
?u=1912a1b11cab332fa977d3a6a&id=cc43eb8b26.
    \22\ ``Personal remittances, received (% of GDP),'' World Bank, 
2019, https://data.worldbank.org/indicator/BX.TRF.PWKR.DT.GD.ZS
    \23\ ``Humanitarian Needs Overview Yemen 2021,'' p. 6.
    \24\ ``Under Secretary-General for Humanitarian Affairs and 
Emergency Relief Coordinator, Mark Lowcock, Briefing to the Security 
Council on humanitarian situation in Yemen,'' UN OCHA, February 18, 
2021, https://reliefweb.int/report/yemen/under-secretary-general-
humanitarian-affairs-and-emergency-relief-coordinator-mark-36.
    \25\ The Yemen Economy Tracking Initiative produced by ACAPS finds 
that the price of rice rose from 260 YER in March 2015 to 1,020 YER in 
December 2020, https://yemen.yeti.acaps.org/
    \26\ ``Yemen: Commodity Tracker'' UN OCHA, 4 September 2018, 
https://reliefweb.int/sites/reliefweb.int/files/resources/
August%202018%20OCHA_Yemen_Commodity%20Tracker%20Final.pdf
    \27\ A total of 119,163 metric tons of fuel were discharged in 
January (80,854 tons), February (0 tons), and March 2021 (38,309 tons), 
according to the March 2021 operational snapshot produced by the UN 
Verification and Inspection Mechanism for Yemen. Monthly national fuel 
requirements are 544,000 metric tons, according to UN OCHA.
    \28\ ``Under Secretary-General for Humanitarian Affairs and 
Emergency Relief Coordinator, Mark Lowcock, Briefing to the Security 
Council on humanitarian situation in Yemen,'' UN OCHA, April 15, 2021, 
https://reliefweb.int/report/yemen/under-secretary-general-
humanitarian-affairs-and-emergency-relief-coordinator-mark-38.
    \29\ ``Yemen: Annual Humanitarian Access Overview, 2020,'' UN OCHA, 
March 14, 2021, https://reliefweb.int/report/yemen/yemen-annual-
humanitarian-access-overview-2020.
    \30\ Bruce Riedel, ``It's time to stop US arms sales to Saudi 
Arabia,'' February 4, 2021, https://www.brookings.edu/blog/order-from-
chaos/2021/02/04/its-time-to-stop-us-arms-sales-to-saudi-arabia/
    \31\ ``United States announces additional humanitarian assistance 
for the people of Yemen,'' USAID, March 1, 2021, https://www.usaid.gov/
news-information/press-releases/mar-1-2021-united-states-announces-
additional-humanitarian-assistance-people-yemen.
    \32\ ``Under Secretary-General for Humanitarian Affairs and 
Emergency Relief Coordinator, Mark Lowcock, Briefing to the Security 
Council on humanitarian situation in Yemen,'' UN OCHA, April 15, 2021, 
https://reliefweb.int/report/yemen/under-secretary-general-
humanitarian-affairs-and-emergency-relief-coordinator-mark-38.
    \33\ The number of people reached with aid each month rose from 7.5 
million in 2018 to 13.7 million people in 2019. Yemen Humanitarian 
Response Plan 2021, UN OCHA, March 2021, https://reliefweb.int/sites/
reliefweb.int/files/resources/Final_Yemen_HRP_2021.pdf.
    \34\ ``2019 Yemen Humanitarian Response Plan,'' UN OCHA, February 
2019, p. 8, https://reliefweb.int/sites/reliefweb.int/files/resources/
2019_Yemen_HRP_V21.pdf.

    Senator Murphy. Thank you to both, and I apologize for 
having to be at the vote for the majority of your testimony, 
and for that reason, I will turn it back over to Senator Young 
to ask the opening round of questions.
    Senator Young. Thank you, Chairman.
    Ms. Grande, Ms. Catanzano--I am sorry, I keep 
mispronouncing your name--thanks again, both, for your years of 
service and for your presence here today.
    Ms. Catanzano, your testimony described Yemen's cycle of 
crisis. I, too, am deeply worried about Yemen reaching a point 
where we lose multiple generations of Yemenis to this conflict, 
whether from being permanently displaced, lack of good 
education, or worse yet, losing their life as a result of the 
ongoing violence.
    This is why, despite the Houthis' despicable behavior, I 
oppose the previous Administration's decision to use an overly 
broad label and list them as a foreign terrorist organization.
    Now, I understand that an FTO designation would only bring 
more suffering to those Yemenis who live in Houthi-controlled 
areas as it would cut them off from the lifesaving humanitarian 
aid that they need to survive.
    But, unfortunately, as we were discussing earlier, the 
Houthis seem emboldened in recent weeks, despite these actions 
from the Biden administration.
    Some of this was addressed in your testimonies, but I am 
going to ask for a few questions. Either of you can pipe up 
because I think each of you covered various facets of it.
    But just to ensure that those who are listening in properly 
understand the magnitude of this humanitarian crisis, I think 
it is very important.
    So, approximately, how many people require humanitarian 
assistance in Yemen?
    Ms. Catanzano. Over 20 million people require humanitarian 
assistance, about two-thirds of the population.
    Senator Young. So perspective for my constituents back 
home, that is, roughly, three times the population of the state 
of Indiana. The math is a little off. We have 6.75 million 
people, give or take, but that is, roughly, three times our 
state's population.
    What percent of the population requires humanitarian 
assistance in Yemen?
    Ms. Catanzano. It is about two-thirds of the population.
    Senator Young. Okay. So okay. I think you just said that. 
So this is--this has been an increase from last year, right?
    Ms. Catanzano. Actually, it is a bit of a decrease from 
last year. But OCHA and the U.N. warns that it is less about it 
being a decrease in those who need but more about assessments 
and ability to survey who is in need. So they would warn us not 
to read too much into that----
    Senator Young. So this is a data issue. Okay.
    Ms. Catanzano. Data issue rather than facts on the ground.
    Senator Young. That starts to become--it is important, but 
it starts to become boring. So we will move on.
    How many are severely food insecure?
    Ms. Catanzano. About half the population is food insecure, 
16 million.
    Senator Young. Okay. How many children are severely 
malnourished? Do you have any sense of that?
    Ms. Grande. 2.3 million right now and 1.3 million women who 
are either pregnant or lactating are severely malnourished.
    Senator Young. Okay, thank you. It is not--this is not a 
game of ``Jeopardy.'' This is not a trivia show. This is real 
life, and, obviously, I am trying to create a picture here for 
those who are listening in.
    I understand the gravity of the situation and what is 
causing incredible hardship and destabilization and, 
ultimately, radicalization and a greater terrorist threat.
    So we have the convergence of a number of different crises 
on account of these different dynamics.
    One of the things I am going to ask you, Ms. Grande, you 
listed off four different steps that we should take and Ms. 
Catanzano listed off a number of other steps to redress some of 
this and help mitigate this crisis.
    But, ultimately, we need to pressure the Houthis to change 
their behavior. Kindly elaborate on that very important point.
    Ms. Grande. It is really hard to do it, Senator. It is one 
of the reasons when I was giving the testimony, you know, I was 
really clear that in 2018 when the country was facing famine 
the first time, of the four things that I listed that need to 
be done, three of those were done and the famine was avoided.
    You know, it is very rare that you actually stop a famine, 
and because of the generosity of the U.S. Government and other 
donors, because of the heroic work of frontline partners like 
IRC and the U.N., it was stopped.
    If we do not do those three things and one more this time, 
that famine is going to hit. Now, the additional factor this 
time is dealing with Ansar Allah, the Houthis behavior.
    In 2018, they had not introduced hundreds of restrictions 
against the delivery of humanitarian assistance, and they have 
now. They now have constructed a state within a state. It is a 
coercive predatory police state.
    Can we beat the famine with that police state intact? I am 
not sure. Now, how you pressure the Houthis to change their 
behavior is a very difficult question to answer. Do you hit 
them really hard and hope they change their behavior? Not 
clear.
    Do you give them some incentives and hope that they change 
their behavior? They are not responding very well to those 
incentives right now, which raises the deeply uncomfortable 
question about how their behavior is going to be changed.
    Now, there are some other possibilities, of course. Perhaps 
the people who are supporting them can finally say to the 
Houthis, you do not get to do this anymore. That might be 
something.
    But that, of course, would be part, as the Special Envoy 
has said, as a much bigger diplomatic initiative, not just on 
Yemen but that includes other parts of the region as well.
    Senator Young. Just sounds unprecedentedly complicated and, 
therefore, even history may not provide us a particularly good 
guide. But so grateful for your work. Thank you.
    Senator Murphy. Thank you very much.
    Ms. Grande, just tell me what has changed between 2018 and 
2020 that has prompted the Houthis to put up, as you refer to, 
literally hundreds of individual barriers to aid? What is 
different?
    Ms. Grande. Senator, it is a great question and I was 
actually the one on the ground, the one person that every 
single day talked to Houthis upside down, inside out, and all 
around.
    What changed was that rather than the Houthis being the 
custodian of the state apparatus in northern Yemen, they, first 
of all, tried to transform it, take it over, capture it, and 
the parts of the apparatus that they did not think were working 
in their interest they have constructed a completely separate 
one.
    It was very noticeable. Literally, from one month to the 
next, the interaction of Ansar Allah with the United Nations 
and other partners on the ground changed dramatically.
    Now, it also coincided with shifts inside of the movement. 
As the Special Envoy noted, there are factions inside Ansar 
Allah, and the falcons, you know, the hardliners as they came 
into increasing power, you could see that their whole approach 
to their responsibilities as the occupiers of northern Yemen 
changed as a result.
    That is what happened. Hardliners got on top of it and now 
control that movement and are driving it in a direction which 
may take it further and deeper into war rather than toward 
peace.
    Senator Murphy. And given that we do not have many people 
who have a greater knowledge of these internal dynamics, that 
hard line group--and I understand it is dangerous to apply 
these names to a very complicated movement--but these 
hardliners, by and large, are the faction that are more closely 
aligned with Iran?
    Ms. Grande. Senator, I think that there are parts of the 
hardliner's constellation that you could definitely say that 
about. There are other parts of the hardliners which are driven 
by a different logic.
    But, in general, you could definitely point in that 
direction and you would not be far off. There are parts of 
Ansar Allah which do not like being under the thumb of Iran.
    They do not like it. They are very upfront about that. They 
are very open about it and they are continually looking for 
alternative ways of engaging with the international community. 
There are people within Ansar Allah like that.
    Senator Murphy. I think it is an incredibly important 
point, and you and I have talked about this at length. But 
there is, obviously, always a tendency to believe that these 
groups on the other side of the world are monolithic.
    The Houthis are not monolithic, and while they, certainly, 
have drawn closer to Iran by necessity as this conflict has 
grown, there are elements of the Houthis that are uncomfortable 
with that that may provide us with some opportunity here.
    But as you note, the overall trend line in behavior, 
regardless of who is connected to Iran and who is not, is just 
devastating when it comes to the people in areas controlled by 
the Houthis.
    Second question for you, Ms. Grande, about the overall 
state of the economy. We focus on this question of fuel 
imports. But it is important to note that we are arguing over 
fuel imports because nothing else is getting in. There is a few 
staple food goods that get in and fuel.
    But tell us the story of the rest of the blockade and how 
that affects the Yemeni economy. It is really hard to have a 
functioning economy when all you let into the country through 
the main port are fuel and six categories of food products.
    Obviously, things get in other ways, but there is a cost to 
that. A functioning economy is very difficult when you have 
such a restriction on items being brought into the country, 
correct?
    Ms. Grande. That is absolutely right. I think in describing 
the war as having two fronts--a military front and an economic 
front--what we are pointing to is that it is the economic 
front. It is economic warfare, which has destroyed that country 
and brought it to its knees.
    That is not to diminish the impact of the military front. 
It is not. But if you look at how many people have been wounded 
and killed on the military front is 20,000.
    How many people have died, conservatively, from the second 
front? 130,000 and counting. Why is the country facing its 
second famine in 2\1/2\ years? Because of the second front.
    That is where the heart of this war is, and the cord that 
are the restrictions on every conceivable form of economic 
activity--credit, customs, capital flows, the Central Bank, the 
number of ships that get in, when they get in--that whole 
architecture is what is driving this humanitarian crisis.
    You want to end the crisis? Stop economic warfare. Stop it.
    Senator Murphy. Yeah. Yeah.
    Ms. Grande. And overnight, I guarantee the situation will 
improve. The U.N. did some back of the envelope calculations of 
how many people we would not have to feed if that second front 
were shut down.
    The World Food Programme and frontline partners would be 
able to immediately, within just a few months, significantly 
reduce by tens of percentage points how many people we have to 
feed. It is that obvious. You know, this is an income famine. 
People cannot afford to pay for the food that is in the country 
at the price point it is there at.
    Now, how do you solve that? You get more income into the 
hands of the people who need to buy things. You lower the 
overall cost of food and basic commodities, and you do that by 
letting these goods circulate freely.
    Now, the second front denies that, and that is why it has 
got to stop.
    Senator Murphy. Thank you, Ms. Grande.
    Ms. Catanzano, you may have covered some of this in your 
testimony but I wanted to come back to this question of the 
humanitarian appeal for this year.
    I take everything that has been said about the inability to 
service people while the conflict exists. I understand that 
there is no way to do this effectively no matter how much money 
we have so long as there is this level of active conflict on 
the ground.
    But that number of what percentage of the appeal has been 
funded this year is really scary, and I am sure you might have 
covered this in your testimony.
    But if you might be able to elaborate on what that means to 
have 20 percent of the appeal funded versus 100 percent or 80 
percent, and then, you know, what the way out is, right. What 
are the reasons why our partners and, particularly, the 
Emiratis and the Saudis are pledging less this year than they 
have in the past? How do we--how do we find a way to get to a 
better number?
    Ms. Catanzano. Thank you, Chairman Murphy.
    I think it is a really important point for us to focus on 
for a number of reasons.
    As you mentioned, the humanitarian appeal is funded at less 
than 25 percent so far this year, and the donor's conference 
that was held last month was really disappointing in terms of 
the money that was put on the table.
    What that means, in effect, is this is the second year 
where we have seen those disappointing results when it comes to 
donors coming to the table.
    Last year at the beginning of 2020, the humanitarian 
response was meeting the needs of about 14 million Yemenis 
every month. That has steadily had to decline to about 9 
million Yemenis per month as a result of that underfunding.
    So while the fighting keeps us from accessing those in need 
and all of the bureaucratic constraints in the north but, quite 
frankly, also in the south that Ms. Grande has alluded to keep 
us from reaching people in need, the single biggest barrier to 
humanitarians doing their work is this lack of funding and it 
has been evident in the numbers that we have seen.
    We see how malnutrition numbers are now at a record. Half 
of Yemeni children under the age of 5 are acutely malnourished; 
400,000 of them are at risk of dying without additional 
treatment.
    That is a direct result of these numbers going down the way 
that they have. The needs are going up, but donors are coming 
to the table with a lot less generosity.
    Part of what we are hearing from some donors is they are 
frustrated with the lack of political progress in Yemen. We are 
all frustrated with the lack of political progress in Yemen. It 
is the conflict that is driving this need on both dimensions--
as Ms. Grande said, the military and the economic fronts.
    But what we know is that Yemenis are bearing that cost, and 
they are not responsible for the lack of political progress. So 
we think we really need the U.S. to put pressure on these 
donors to not make their contributions contingent on political 
progress.
    Humanitarian aid should not have strings attached. I think 
that is--we heard Mr. Lenderking's commitment today to endorse 
a follow-on donors conference, which was an offer put on the 
table by this year's hosts right at the moment of the previous 
donors conference because it was such a disappointment. They 
said right on that day, we need to do this again, and I think 
that is important.
    And I think the U.S. now has a bit more moral authority to 
rally those donors to the table, having lifted the suspension 
in northern Yemen that had been on place last year.
    Every dollar matters when the catastrophe is this big, and 
so the willingness of the U.S. to move forward and bring that 
money to bear in the north will help them galvanize other 
donors and encourage them not just to write to--to pledge but 
to turn those promises into real dollars quickly because 
promises of money do not save lives.
    That money needs to be moved quickly to frontline agencies 
with the ability to scale up.
    And as Ms. Grande mentioned earlier, we saw in 2018 and 
2019 when the humanitarian appeal was fully funded and 
humanitarians were able to scale up we averted the worst 
outcomes.
    We could do that again. That knowledge and that ability is 
still there in country. It just needs the funding to start--to 
kick into action.
    Senator Murphy. One final question to follow up.
    Amongst those donors is the United States. Could the United 
States do more to lead by example and ask others to follow, 
especially if we are going to be convening a second sort of 
mission-directed donors conference?
    Ms. Catanzano. I think the U.S. could do more. I think the 
U.S. also has an important convening role to play. It is not 
just about the size of the check that the U.S. writes, but its 
ability to bring others to the table.
    The U.K. has been particularly disappointing this year with 
their pledges. I think pressure needs to be brought to bear on 
the U.K.
    If they want to be the pen holder at the Security Council, 
they also need to be willing to bring their contributions to 
the table for the humanitarian response.
    So it is both about more U.S. funding, but it is also about 
U.S. using its leverage to bring those donors to the table. And 
like you mentioned, the Saudis and the Emiratis, while they did 
bring funding to the table this year and the UAE had not last 
year, it is at far lower rates than we have seen in the past.
    So that is another set of donors that I think the U.S. 
really needs to be banging on.
    Senator Murphy. Yeah. Just to put it on the record, the 
Saudis each gave around half a billion dollars in 2019. That is 
a substantial amount of money, no doubt. But these are the 
actors that have been primarily responsible for continuing to 
fuel this conflict.
    The Saudis have pledged $430 million, significantly less, 
and the Emiratis have only pledged $230 million this year. So 
that is, in part, what explains our shortfall?
    Senator Young?
    Senator Young. Just an observation and a reflection as we 
prepare to close here.
    We, Americans, I think, have a cultural penchant most 
especially towards trying to solve problems, and in a sort of 
geopolitical context, oftentimes, it has been said that you 
need to manage problems, really hard problems, and sometimes 
you need to manage them until they can be solved.
    And so I think this hearing has been particularly 
informative to me about itemizing and articulating some ways 
that we can be constructive managers partnering with this 
Administration, partnering with other countries, pressuring 
other countries and individuals and stakeholders where 
necessary in order to mitigate some of the carnage and violence 
and threats of violence that we see.
    Working to ensure that sufficient aid is provided by our 
Gulf partners, pressuring some of our European partners, some 
of our closest friends, and they know who they are who have not 
stepped up and put forward the pledge funding or the expected 
funding, ensuring the United States continues to lead the way 
when it comes to these sorts of initiatives.
    Working through the U.N. Security Council and the U.N. 
General Assembly where possible to advance some of the items 
that you vocalized, opening up channels for NGOs to continue 
providing assistance, such vital assistance. Be wise and 
discerning when it comes to our foreign military sales 
decisions on this committee of jurisdiction, rather than as a 
matter of course sort of agreeing with whatever Administration 
might be in charge or not dedicating sufficient time and 
scrutiny to those sales.
    And looking for opportunity, looking for lines of 
opportunity to apply that pressure on the Houthis. We will 
identify moments. We will identify pressure points.
    They may not be clear to us right now but they will emerge 
and we have to be looking for them, again, working by, with, 
and through partners and allies. So I just thank you all for 
your dedicated, tireless, and passionate service.
    And with that, Mr. Chairman, I commend you for chairing 
this most informative subcommittee here.
    Senator Murphy. Thank you. I am going to ask one final 
question, to ask Ms. Grande, to close this out, and that is to 
just point us forward.
    Let us leave on an optimistic note that we can create the 
conditions through U.S. diplomacy and Mr. Lenderking's efforts 
to arrange for a ceasefire and that we are in a discussion 
about what a political framework looks like for the future of 
Yemen.
    This is not impossible. There are all sorts of signs that 
this is something that can be achieved. And so just give us a 
sense of what that framework can look like if a nationwide 
ceasefire is achieved.
    Who would be part of these negotiations? Is there a sort of 
practical outline that we can identify about what Yemen may 
look like 5 years from now if we are able to get beyond this 
emergency?
    Ms. Grande. That is a really good question and a really 
difficult one to answer because the working approach to the 
national reckoning or national dialogue is that the people who 
have taken up arms are the ones who have to sit at the table. 
Of course, that is obvious and, yes, they should.
    But I was very pointed in my comment in saying that there 
is something really nasty about allowing the future of Yemen to 
be in the hands of the elites who have destroyed the country 
and brought misery.
    I think there is also a perverse incentive in that formula. 
If you want to get to the table, how do you do it? You take up 
arms. We see this in a number of political forces who are 
looking at the table, want to join it, and have staked out a 
position now that is far more militarized--securitized than it 
would have been before because of that perverse logic.
    So how do you change that? You start a process right now, a 
pre-dialogue, where all of the political representatives, all 
the parties that have aspirations to represent the will of the 
people, sit at the table. The military folks sit at the table. 
You put the women's groups, the youth groups, and the tribal 
leaders--who all throughout this crisis have been stepping into 
the void created by the breakdown of judicial systems and 
provided adjudication to the community at the table.
    Bring in the intelligentsia and the private sector that is 
going to have to rebuild the country. Put all of those people 
in the table now--this is something that the Special Envoy 
hinted at--and you set a direction for the future, one that 
will be involving all of the components of civil society and 
the military and the political components in a way which can be 
fruitful and forward looking.
    That would be a start.
    Senator Murphy. It is why I included in my question a query 
as to who should be at that table, because that determines what 
the table talks about and what the result of that conversation 
is, I think an important expectation to set--a hopeful one--
that we can get to that conversation.
    Thank you for testifying, both to you and to the Special 
Envoy. We appreciate your insights and recommendations to the 
committee.
    The record is going to remain open for questions for the 
record until Friday at 6:00 p.m.
    And with that, this hearing will conclude.
    [Whereupon, at 3:34 p.m., the subcommittee was adjourned.]
                              
                              ----------                              


              Additional Material Submitted for the Record


             Responses of Timothy Lenderking to Questions 
                 Submitted by Senator Edward J. Markey

    Question. The most recent fuel crisis continues a disturbing 
pattern of cyclical stop-and-go imports and tactics of war many have 
termed simply as ``the blockade''. The current commercial fuel crisis 
is impacting food transporters and processors, hospitals, schools, 
business, and homes. The inaction and finger pointing by the warring 
parties is hot air to the millions of civilians trapped in the middle 
who suffer the consequences and inch closer towards famine.
    What concrete steps will you and the U.S. Government take to push 
the IRG and Saudis to allow the free flow of fuel into Yemen's northern 
ports?

    Answer. The United States opposes restrictions that arbitrarily 
delay or deny essential commodities from getting to the people who need 
them the most, including through Hudaydah port. The Secretary 
personally engaged the Yemeni Prime Minister on this issue and as a 
result we have seen seven fuel ships recently move into Hudaydah port. 
I will continue to raise the issue of timely and regular delivery of 
fuel at the highest levels of the Yemeni and Saudi governments. Yemen's 
humanitarian crisis is a result of over 6 years of war and the collapse 
of the economy and social services; the only way to reverse this is to 
end the conflict.

    Question. Do you agree that the current lack of fuel in the 
northern markets is exacerbating Houthi war profiteering as they move 
to smuggle fuel from the south and exploit black market sales with 
skyrocketing prices?

    Answer. Yes. Any illicit movement of fuel throughout Yemen serves 
ongoing Houthi military offensives in Marib and throughout Yemen. Even 
legitimately offloaded fuel faces a high risk of Houthi diversion for 
improper use. The United States opposes restrictions that arbitrarily 
delay or deny essential commodities from getting into Yemen and to the 
people who need them the most, including through Hudaydah port. We will 
continue to advocate and raise at the highest levels the need for 
unimpeded flow of fuel and other commodities throughout all of Yemen.

    Question. Have any parties to the conflict indicated to you that 
this fuel blockade is in any way an attempt to slow the Houthi's 
violent and reckless Marib offensive, or to bring the Houthis to the 
negotiating table? Have you made clear to the IRG, Saudi Arabia, and 
partners that withholding fuel, and intentionally causing a 
humanitarian crisis could constitute war crimes?

    Answer. I have made it clear that the United States opposes 
restrictions that arbitrarily delay or deny essential commodities from 
getting to the people who need them the most, including through 
Hudaydah port. It is one of my highest priorities to make sure that aid 
reaches those in need. Unfortunately, once fuel and other goods pass 
through the port, they face additional obstruction and bureaucratic 
hurdles from the Houthis and other actors. Yemen's humanitarian crisis 
is the result of over 6 years of war and the collapse of the economy 
and social services. The only way to reverse this crisis is to end the 
conflict.

    Question. The ticking time bomb of the SAFER tanker continues to 
threaten humanitarian catastrophe in Yemen and the Horn of Africa. A 
spill would devastate the ecosystem of the Red Sea and halt trade in 
one of the busiest waterways in the world. Getting an agreement to 
repair the SAFER should be a no-brainer confidence-building measure 
from which to build trust between the warring parties given the mutual 
benefits for all regardless of conflict dynamics.
    Have you or anyone else in the U.S. Government had any recent 
conversations with any of the parties, or with United Nations 
Representatives to push for an agreement on SAFER repairs?

    Answer. We engage on a daily basis with our European counterparts 
and the United Nations on this issue. The United States stands with the 
international community in calling upon the Houthis to allow a U.N. 
team aboard the ship to conduct an initial assessment. We have been 
disappointed by the roadblocks and delays by the Houthis that are the 
sole obstacle to the U.N. team's deployment. The U.N. Security 
Council--with our strong support--continues to call attention to this 
issue in its statements.

    Question. On February 4, President Biden announced an end to 
support for ``offensive'' Saudi operations in Yemen. Can you describe 
the categories of operations and types of assistance that will be 
suspended, and what types of assistance, if any, that will continue?

    Answer. The President ended U.S. support for offensive operations 
in Yemen, including relevant arms sales. To that end, the 
Administration has suspended two arms sales with Saudi Arabia and will 
continue to consult with Congress and to evaluate other potential sales 
to ensure they are consistent with U.S. values. The President also 
committed to maintaining support for Saudi Arabia's defense of its 
territory and people, and our military and security cooperation in 
furtherance of Saudi defense against cross-border attacks will 
continue.

    Question. How will you ensure that any future support provided to 
Saudi Arabia doesn't intentionally or unintentionally aid efforts that 
don't fit the definition of ``offensive'' operations?

    Answer. We will continue to consult with Congress and regularly 
evaluate arms transfers to ensure they are consistent with our foreign 
policy goals, including a peaceful resolution to the Yemen conflict. 
The Department evaluates U.S. arms transfers against various criteria, 
including intended end use. The Secretary has been clear that we will 
not proceed with sales for which we assess that the end use is 
inconsistent with U.S. policy priorities.
                                 ______
                                 

Press Report Submitted by Senator Todd Young: ``Houthis indoctrinating 
 children in Yemen `with violent, anti-Semitic and extremist material' 
            '' by Campbell MacDiarmid, dated April 15, 2021

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


                                  [all]
</pre></body></html>
